<html>
<title> - [H.A.S.C. No. 111-90] PSYCHOLOGICAL STRESS IN THE MILITARY: WHAT STEPS ARE LEADERS TAKING?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-90]
 
                        PSYCHOLOGICAL STRESS IN

              THE MILITARY: WHAT STEPS ARE LEADERS TAKING?

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 29, 2009

                                     
[GRAPHIC] [TIFF OMITTED 




                  U.S. GOVERNMENT PRINTING OFFICE
56-936                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                 Dave Kildee, Professional Staff Member
               Jeanette James, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, July 29, 2009, Psychological Stress in the Military: 
  What Steps Are Leaders Taking?.................................     1

Appendix:

Wednesday, July 29, 2009.........................................    49
                              ----------                              

                        WEDNESDAY, JULY 29, 2009
  PSYCHOLOGICAL STRESS IN THE MILITARY: WHAT STEPS ARE LEADERS TAKING?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     6
Chiarelli, Gen. Peter W., USA, Vice Chief of Staff, U.S. Army....     3
Fraser, Gen. William M., III, USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................     7
Lefebvre, Maj. Gen. Paul E., USMC, Deputy Commanding General, II 
  Marine Expeditionary Force, U.S. Marine Corps..................    37
Lynch, Lt. Gen. Rick, USA, Commanding General, III Armored Corps 
  and Fort Hood, U.S. Army.......................................    35
Walsh, Adm. Patrick M., USN, Vice Chief of Naval Operations, U.S. 
  Navy...........................................................     4

                                APPENDIX

Prepared Statements:

    Amos, Gen. James F...........................................    79
    Chiarelli, Gen. Peter W......................................    56
    Davis, Hon. Susan A..........................................    53
    Fraser, Gen. William M., III.................................    90
    Walsh, Adm. Patrick M........................................    67
    Wilson, Hon. Joe.............................................    55

Documents Submitted for the Record:

    Two articles from the Pacific Daily News of Guam, dated March 
      25, 2009 and July 4, 2009..................................   101
    Washington Post article, ``Crime Rate of Veterans in Colo. 
      Unit Cited,'' July 28, 2009................................   105

Witness Responses to Questions Asked During the Hearing:

    Mr. Jones....................................................   109
    Ms. Shea-Porter..............................................   109
    Ms. Tsongas..................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   115
    Mr. Wilson...................................................   113
  PSYCHOLOGICAL STRESS IN THE MILITARY: WHAT STEPS ARE LEADERS TAKING?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Wednesday, July 29, 2009.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. The meeting will now come to order. Thank you 
all for being here, and welcome to our new digs. We are 
obviously refurbishing the House Armed Services room in 
Rayburn, and so we are using this room today. We hope that 
everybody is going to be comfortable here.
    The mental health status and needs of servicemembers, their 
families, retirees and their families relate to most, if not 
all, hearings held by this subcommittee. Whether we are 
discussing post-traumatic stress disorder (PTSD), family 
support programs, frequency of deployment, access to health 
care, missing in action (MIAs), prisoners of war (POWs), or the 
aftermath of a sexual assault, the importance of mental well-
being is always involved. We also dedicate one hearing a year 
solely to mental health issues.
    This year's hearing on mental health was originally 
intended to examine the increased incidence of suicide in the 
military and to review what actions the Office of the Secretary 
of Defense (OSD) and the military services were taking to 
address this troubling trend. However, we know that suicide is 
not a discrete occurrence or problem. It is the final step an 
individual takes when they can no longer deal with the 
stressors in their lives. And, therefore, in order to determine 
why the suicide rate has increased, the entire spectrum of 
stressors must be considered.
    Further, there is zero-sum-gain aspect to mental health. 
Neither the Department of Defense (DOD) nor the country in 
general have enough mental health providers. Any resources 
directed towards suicide prevention will have to be directed 
away from your current allocation. So it is important to 
examine what is going to be shortchanged in order to resource 
any new suicide prevention program and to consider if this will 
have any negative unintended consequences.
    For today's hearing we will have two panels. In the first 
we are fortunate to have the four vice chiefs of the services 
here to talk about what they are doing to deal with the 
psychological stress on their soldiers, sailors, marines and 
airmen. We have the Vice Chief of Staff of the Army, General 
Peter Chiarelli; the Vice Chief of Staff of Naval Operations, 
Admiral Patrick Walsh; the Assistant Commandant of the Marine 
Corps, General James Amos; and the Vice Chief of Staff of the 
Air Force, General William Fraser.
    Gentlemen, we look forward to your testimony and hope to 
leave this hearing with a clear understanding of how each of 
your services is addressing the issue. It is important for the 
headquarters of each military department to acknowledge and to 
address this issue, and it is also just as important for 
individual commanders to understand the problem and take 
positive actions at their level.
    For our second panel, then, we have chosen to highlight the 
positive actions taken by commanders of their own accord to 
address the psychological stress experienced by their command. 
We have Lieutenant General Rick Lynch of the Army, Commanding 
General of III Corps and Fort Hood, to participate in our 
hearing. General Lynch has used his command authority to make 
fundamental changes to the way his installation is run with the 
goal of providing soldiers and, just as importantly, their 
families stability and predictability in their schedules.
    From Marine Corps we have Major General Paul Lefebvre, 
Deputy Commanding General of II Marine Expeditionary Force. 
General Lefebvre created the Office of Suicide Prevention 
Training Program and the Operational Stress Control and 
Readiness Extender Program.
    The problems that we are discussing today cannot be solved 
today. We wish they could, but we know that is not possible. 
But we must continue to understand and confront the 
psychological stress that our servicemembers and families have 
to deal with every single day. We must continually evaluate 
actions taken, gauge their effectiveness, and then press to 
determine what must be done.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 53.]
    Mrs. Davis. Mr. Wilson, I turn it over to you for your 
comments.

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank the Chairwoman Davis. And thank you for 
holding this hearing today.
    Today's hearing continues our commitment to work with the 
Department of Defense to find ways to address the psychological 
stress that our servicemembers are struggling to overcome and 
to continue to improve mental health services for our military 
personnel and their families. I am encouraged by the direction 
that the Department and the military services are taking to 
recognize and alleviate psychological stress experienced by our 
troops, particularly our combat veterans.
    From my own service as a veteran in the National Guard and 
Reserves, with four sons currently serving in the military, I 
understand the responsibility for finding the right answers to 
this problem does not lie solely with the military medical 
departments. This is also a leadership challenge, and I commend 
the military service for making the mental health of our 
military and their families a leadership priority.
    With that said, as the former president of the Mid-Carolina 
Mental Health Association, I remain concerned that the programs 
that each of the services are implementing to address 
psychological stress are disjointed and are not well 
coordinated or communicated. I am anxious to hear from our 
military senior leaders on our two panels what steps have been 
taken to develop a comprehensive multidiscipline approach to 
addressing psychological stress.
    I would like to welcome our witnesses, thank them for their 
services, and I am particularly grateful to see persons who 
have served at Fort Jackson Marine Air Station/Beaufort, at 
Parris Island/Beaufort Navy Hospital that I have the privilege 
of representing. And I want to thank you for participating in 
the hearing today. I appreciate your providing young people the 
extraordinary opportunity of military service which protects 
American families. I look forward to your testimony.
    Mrs. Davis. Thank you very much.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 55.]
    Mrs. Davis. And we will begin, General, please.

STATEMENT OF GEN. PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Madam Chairwoman, Ranking Member Wilson, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear before you today to provide a status on 
the United States Army's efforts to reduce the number of 
suicides across our force. This is my first occasion to appear 
before this esteemed subcommittee, and I pledge to always 
provide an honest and forthright assessment. I submitted a 
statement for the record, and I look forward to answering your 
questions at the conclusion of opening remarks.
    As all of you know, it has been a busy time for our 
Nation's military. We are at war. We have been at war for 
nearly eight years. That has undeniably put a strain on our 
people and our equipment. Unfortunately, in a growing segment 
of the Army's population, we have seen increased stress and 
anxiety manifest itself through high-risk behaviors, including 
acts of violence, excess use of alcohol, drug abuse and 
reckless driving. The consequence in the most extreme cases has 
been an increased incidence of suicide.
    Earlier this year I visited six posts in eight days in 
order to conduct sensing sessions, collect data and evaluate 
suicide-prevention efforts and programs. It became clear to me 
after leaving the third installation that our mission extended 
far beyond suicide. Simply stated, we must find a way and ways 
to improve the behavioral wellness of soldiers and their 
families after repeated deployments in the context of eight 
years of war. And that is why Secretary of the Army Pete Geren 
and our Chief, General George Casey, consciously made the 
decision to expand our efforts to improving the overall 
behavioral health and well-being of the force.
    Ultimately we want to get left of this very serious 
problem, and to do so we must improve the resiliency of our 
soldiers and their family members. In the past the Army's 
approach was primarily reactive. That has changed today. It is, 
in fact, proactive, to identify or assess and mitigate issues 
early on before it becomes significant concerns; to educate 
soldiers in order to ensure they are aware and have access to 
resources and support programs that can provide them with the 
most benefit; and to assist and treat individuals who are 
struggling and may need help. We are confident by doing so, by 
improving the overall resiliency, behavioral health and well-
being of soldiers and their families, we will also ultimately 
reduce the number of suicides across our Army.
    Our approach is based on two big ideas: the Comprehensive 
Soldier Fitness program, which is really the big idea that 
moves us to the left, and a campaign plan for health promotion, 
risk reduction and suicide prevention. We are also taking steps 
to eliminate the stigma that has frequently kept soldiers from 
seeking and receiving help.
    The reality is in all cases there is no simple solution, 
and we must resist any attempt to generalize or oversimplify 
the challenges we are facing. Improving the overall health and 
well-being of our force will require a multidimensional 
approach to identify effective programs and mitigation 
strategies. And it will take a total team effort across all 
Army components, jurisdictions and commands, as well as in 
cooperation with the Department of Health, Congress, National 
Institute of Mental Health (NIMH) and other willing civilian 
health-care providers, research institutes and care facilities. 
I can assure you, the members of this subcommittee, that this 
challenge remains a top priority for the United States Army.
    Madam Chairwoman, members of the subcommittee, I thank you 
for your continued and generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. I look forward to your 
questions.
    Mrs. Davis. Thank you very much.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 56.]
    Mrs. Davis. Admiral Walsh.

 STATEMENT OF ADM. PATRICK M. WALSH, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Walsh. Madam Chairwoman, Congressman Wilson, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify about the organizational and command-
level efforts to prevent suicides in the Navy. Suicide ranks as 
the third leading cause of death in the Navy. It is a loss that 
destroys families, devastates communities and unravels the 
cohesive social fabric and morale inside our commands.
    While the symptoms of those who contemplate suicide are 
unique to each person, a common thread to all victims is a 
sense of psychological emptiness that leaves individuals 
impaired and unable to resolve problems. Therefore, the steps 
that leaders take to find solutions to this tragedy must 
address the underlying causes that affect the ability of an 
individual to recover from change or misfortune and regain 
their physical and emotional stamina. So the target of our 
policy and practice is the resilience of individual sailors and 
their families. This means that leaders must look for and 
connect to those individuals challenged by seemingly 
intractable troubles with relationships and work, financial and 
legal matters, deteriorating fiscal health, as well as mental 
health issues and depression.
    We must eliminate the perceived stigma, shame and dishonor 
of asking for help. This is not simply an issue isolated to the 
medical community to recognize and resolve. Commands have a 
critical role to play in setting a supportive climate for those 
who need to admit their struggle and seek assistance.
    Some of the more noteworthy policy and programmatic actions 
that leaders have taken include the Chief of Naval Operations 
(CNO) directed establishment of a preparedness alliance, which 
is a consortium led by our Chief of Naval Personnel, our Chief 
of Naval Reserves, Bureau of Medicine and our Commander of 
Installations Command, to address a continuum of care that 
covers all aspects of individual medical, physical, 
psychological and family readiness issues across the Navy.
    Additionally, the CNO instituted an Operational Stress 
Control Program, which is a comprehensive approach designed to 
address the psychological health needs of sailors and their 
families. It is a program led by operational leadership, 
supported by the naval medical community, and provides 
practical decision-making tools for sailors, leaders and 
families so they can identify stress responses and problematic 
tension.
    By addressing problems early, individuals can mitigate the 
effects of personal turmoil and get the necessary help when 
professional counseling or treatment warrant. Through training, 
intervention, response and reporting, the Navy executes 
prevention programs for all sailors that focus on operational 
commands to take ownership of suicide training initiatives and 
tailor them to their unique command cultures.
    Feedback is an important element of policy development. The 
Navy polls extensively and tracks statistics on personal and 
family-related indicators such as stress, financial health, 
command climate, as well as sailor and family support. We use 
this data to monitor the trends in the force and make 
recommendations for adjustments in deployment practices, as 
well as track all suicidal acts and gestures.
    In conclusion, on behalf of the men and women of the United 
States Navy, I thank you for your attention and commitment to 
the critical issue of suicide prevention. By teaching sailors 
better problem-solving skills and coping mechanisms for stress, 
the Navy will make our force more resilient. We will do 
everything possible to support our sailors so that in their 
eyes their lives are valued and are truly worth living.
    Thank you.
    Mrs. Davis. Thank you.
    [The prepared statement of Admiral Walsh can be found in 
the Appendix on page 67.]
    Mrs. Davis. General Amos.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Amos. Thank you, Chairwoman Davis, Ranking Member 
Wilson and distinguished members of this subcommittee, for the 
opportunity to report on the Marine Corps suicide and 
psychological stress prevention efforts. On behalf of the more 
than 242,000 active and Reserve marines and their families, I 
would like to extend my appreciation for the sustained support 
Congress has faithfully given to its corps.
    As we begin this hearing, I would like to highlight a few 
points from our written statement. The tragic loss of a single 
marine to suicide is deeply felt by all of us who remain 
behind. We lost 42 marines to suicide in 2008, up from 33 in 
2007 and up from 25 in 2006. This is unacceptable, and we are 
taking action to turn this trend around. The Commandant cares 
deeply about this and is committed to work with the leadership 
of the Marine Corps to fix it.
    The data shows that the marine most likely to die by 
suicide corresponds to the Marine Corps' institutional 
demographics. He is a Caucasian male. He is 18 to 24 years old, 
between the ranks of private and sergeant E-1 through E-5. The 
most prevalent common thread is a failed relationship. Male 
marines are significantly at greater risk of suicide than 
female marines. The most common methods of suicide within the 
Marine Corps are gunshot or hanging, similar to our civilian 
counterparts.
    Suicide prevention is required training for recruits in 
boot camp and for all our new officers at The Basic School. It 
is part of the curriculum at our staff non-commissioned officer 
(NCO) academies, our commanders courses, and at other 
professional military education venues. Simply put, suicide 
prevention training is incorporated into our formal education 
and training at all levels of professional development and 
throughout a marine's entire career.
    Regretfully, there is no single solution that will likely 
turn this trend around. Rather, we believe it will be a 
combination of efforts whose consistent themes are value-based 
training, behavior modification and leadership. At a planning 
session this past November, some of our Corps' very brightest 
and best young non-commissioned officers asked us to provide 
them with the additional training so that they could take 
ownership of suicide prevention for their peers and for their 
marines.
    Our NCOs have the day-to-day contact with these marines, 
and as such have the best opportunity to see changes in 
behavior and other problems that can mark marines in need of 
help. As a result, we have developed a high-impact leadership 
training program focused on our non-commissioned officers and 
our corpsmen. It is designed to provide them with additional 
tools to identify and assist marines at risk for suicide.
    Additionally, I directed the Marine Corps Combat 
Development Command to take an independent look at our suicide-
prevention training throughout the Marine Corps. A special task 
force began their work earlier this month on how we are 
specifically training our marines. It will explore how we can 
modify training at all levels to improve resilience, decrease 
stigma and reinforce the themes that marines thrive in 
hardship, that marines persevere through the strength of our 
fellow marines, and that marines don't quit when the going gets 
tough. In other words, we want to get to the left of the 
suicide.
    To rapidly raise the level of awareness across the Marine 
Corps, 100 percent of all marines received additional training 
in suicide prevention during the month of March this year. The 
training package was delivered by Marine leaders and educated 
all marines on warning signs, engagement with their buddies, 
and how to access the variety of local and national support 
resources. With support from the Navy, we are increasing the 
number of our mental-health professionals, embedding more of 
them in our deploying units where they can develop close 
relationships with our marines all in an attempt to reduce the 
stigma of seeking help and to identify potentially affected 
individuals earlier.
    While there is no single answer that will solve this crisis 
of rising suicides, we are committed to exploring every 
possible solution and using every resource we have available. I 
promise this committee that I will not rest until this is 
turned around. I thank each and every one of you for your 
faithfulness to our Nation and your confidence in the 
leadership and commitment of our Corps.
    Mrs. Davis. Thank you, General.
    [The prepared statement of General Amos can be found in the 
Appendix on page 79.]
    Mrs. Davis. General Fraser.

 STATEMENT OF GEN. WILLIAM M. FRASER III, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Fraser. Chairwoman Davis, Representative Wilson, 
distinguished members of this committee, I want to thank you 
for the opportunity to appear before you today. It is a 
privilege to join with the other vice chiefs of our sister 
services in addressing this very important issue. I want to 
echo their sentiments and believe we must continue to develop 
and implement programs to maintain the psychological health of 
our servicemembers.
    Your Air Force is heavily engaged in worldwide operations. 
The demands of frequent deployments and increased workloads at 
home station, compounded by other external factors such as 
economic pressures, continue to place a heavy burden on our 
airmen and their families. Under these conditions the Air Force 
does not take a business-as-usual approach to monitoring the 
physical and the psychological well-being of our force. The Air 
Force Suicide Prevention Program requires the personal 
attention of every airman. Secretary Donley and General 
Schwartz, our Chief of Staff, have led the charge in making it 
clear that whether you are on active duty, Guard, Reserve or 
civilian, leaders across our force must deal with this problem 
head on.
    Through a total force approach, we are strengthening our 
focus on the suicide preventions. We are working diligently to 
heighten awareness and reduce the stigma of seeking help. Our 
goal is to ensure that every airman is as mentally prepared for 
deployments and redeployments as they are physically and 
professionally.
    We continue to institutionalize our Air Force Suicide 
Prevention Program, focusing heavily on 11 program elements 
that enhance the psychological and health treatment and 
management programs. Recognizing the importance of 
collaboration in this effort, we are bringing together key 
representatives from across the Air Force in working groups to 
ensure that we anticipate, identify and then treat the 
psychological health issues that are before us.
    We are also working closely with our joint teammates to 
capitalize on best practices as seen in the other services. 
While there is some comfort in the impact these programs are 
having, even a single suicide is one too many. Individually and 
collectively, the Air Force is committed to taking care of our 
most valuable asset, that is our airmen.
    I want to thank you for your continued support of America's 
airmen. I look forward to your questions and further discussion 
on how we can best serve those that serve our Nation.
    Thank you.
    Mrs. Davis. Thank you.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 90.]
    Mrs. Davis. I want to thank all of you. And I know from 
your statements that you have submitted, as well as your 
comments today, that you take this very seriously, and we 
certainly appreciate that. I wonder if you could just expand on 
your statements a little bit and share with us what has been 
the most frustrating part of trying to deal with these issues? 
What would you like us to know as you have had to deal with 
this?
    General Chiarelli.
    General Chiarelli. Well, the most frustrating thing is 
trying to find the cause. And that is why we have asked the 
help of the National Institute of Mental Health to do a study. 
And we feel that this could be huge, huge for the Army, 
Department of Defense and, quite frankly, for America, because 
I think many of the lessons that are going to be learned in 
this study, where we have combined the resources of the 
Department of Defense, Harvard, Columbia, University of 
Michigan and put together a world-class team, that it is going 
to have the Army and the Marine Corps to use, to gather the 
data that I think are really going to unlock some of the 
mysteries of why this happens with some individuals. And I 
think it will get us out of the speculation of someone who 
spent 36 years with troops trying to figure out and look at 
statistics and determine a cause, it will get me out of that 
business and into the business of finding out what the real 
cause is, what works and what does doesn't work, so that we can 
provide for our commanders that which I think will help them in 
helping to prevent suicide.
    Mrs. Davis. Have they shared how you might make real-time 
use of that data as they are developing their study? Is that 
something that you have been able to move forward on?
    General Chiarelli. They realize this is not business as 
usual, as General Fraser said. We are into this, and we are not 
going to wait for the results of a study or anything else. And 
the National Institute of Mental Health understands that. And 
we rolled out the study team a week ago, and we already have 
calendared their first comeback to us of initial study results 
in early November of this year. They will do that every single 
quarter. So we will learn as they are collecting the data and 
analyzing the data, and that is exciting.
    I think the other thing that is frustrating to me is I 
really think the thing that will give us a leg up on this that 
will help us out so much is to increase the amount of dwell 
time that our soldiers have at home. There is no doubt in my 
mind that this reduced dwell time, turning it around in 
rotations every 12 to 15 months, is causing a tremendous amount 
of stress on the force, on soldiers, families, and I have to 
believe that the National Institute of Mental Health will 
identify that early as one of the stressors that is affecting 
us.
    Mrs. Davis. Thank you.
    Admiral Walsh, did you want to comment?
    Admiral Walsh. It is actually hard to organize our thoughts 
when it comes to that question because there is so many 
different ways to approach this at so many different levels. So 
on a very personal note, I would like to play a constructive, 
impactful role. And in this particular area, because you are 
dealing with so many unknowns and variables that are very hard 
to even describe and grasp, it is hard to come forward asking 
for more resources and programmatic solutions to something that 
requires a connection to take place between people.
    And so that is why we try and take a balanced approach to 
this that really pulls on the command and operational sorts of 
roles that need to be played in trying to carve out time and 
space to look at people and see what people need. And what I 
have heard across the panel here is absolute consensus on a 
climate that allows for that kind of dialogue and feedback; 
absolute consensus on we will leave no good idea on the table; 
shared best practices between the services in terms of how they 
will adapt initiatives to their particular culture and domain.
    What is frustrating for us is not to find the correlative 
data that we are looking for. In one sense you would think that 
more deployments would be indicative of those that would be 
more inclined to go down this path, and that has not been the 
case for Navy. In fact, what this conversation provokes is 
really an inward look inside our own cultures to see where are 
the checks and balances, where is the accountability, where are 
the authorities, and how do we look after people. And what we 
find is that we have built our culture on our deployment model, 
and that while there may be some exceptions, the problems that 
we find in the case of suicide is that our folks, while they 
are deployed, generally do okay. We have some vulnerable 
pockets within the general population of sailors.
    But the area that we really need to focus on is when all 
those checks and balances and that sort of cocoon that they 
live in on deployment is now taken away, and they come back off 
the deployment. And so the first six months for those who 
return from deployment are those who are in the area that is 
most vulnerable, as well as those who have never deployed. And 
so what that does is it sort of strikes in the face of what 
many in the general population think, is that we are handcuffed 
off to deployment, and that we have to do this, and therefore, 
it is more stressful for us.
    The reality of it is the target for this needs to be the 
assimilation of those who have served back into the general 
population dealing with the day to day, whether it is families, 
their kids, their education, their bills and the relationship 
stressors associated with it.
    Mrs. Davis. Thank you.
    General Amos and General Fraser, if the panel doesn't mind, 
if Members don't mind, we are going to go ahead and finish our 
panel. Thank you.
    General Amos. I share my colleagues' exact sentiments here. 
It is interesting because the Marine Corps, like all of us, 
have been deployed in some pretty tough conditions for the last 
seven years and have done quite well. And when you visit, and I 
know probably all the committee members have visited them 
forward-deployed in combat, they are a happy lot. Even though 
they are full of stress, and there is an awful lot going on, it 
is very dangerous, they are a happy lot. And when they come 
home, that is typically when we have issues.
    The Marine Corps is unique in that 70 percent of the 
marines, actually about 71 percent of our 204,000 marines we 
have on active duty today are on their first enlistment. So we 
are the youngest of all the services. We have got 42 percent of 
our marines are lance corporal and below; 24 percent of that 
204,000 aren't even of drinking age yet. So this is a very, 
very young population that we have.
    The frustrating part for us in the Marine Corps, and I know 
it is shared by my brothers here, is trying to find those 
common threads that you can actually put your fingerprints on 
and try to do something about. I mentioned in my opening 
comments that one of the typical threads is a failed 
relationship. That seems to--that seems to be for the marines, 
the young men, that 18 to 24 that are taking their lives, seems 
to be a common thread, but it is never the thing that seems to 
push it over the edge.
    There are a pile of stressors that in many cases, if taken 
by themselves, and you could carve them out and set them aside, 
they can deal with them quite nicely. And the fact of the 
matter is most marines do deal with them. But it is the 
compilation of those stressors and all of us trying to figure 
out, okay, how do we identify those ahead of time, and how do 
we do something about it to kind of stop this chain of events 
that finally leads somebody to take their lives. That is the 
frustrating part, Chairwoman. And we are working very hard, but 
we have only found a couple of things that seem to be common.
    Mrs. Davis. General Fraser.
    General Fraser. Thank you. And I, too, would echo the 
comments that have already been made. But let me just say that 
most frustrating is the fact that there is no one single 
answer. But even above that, I would say it is more 
frustrating, for everything that we provide, given the 
resources that we have in the programs that are in place, is 
when an individual does reach out and they seek help, and we 
are seeing that happen. Actually our numbers are going up where 
I think we are seeing that the stigmatism is--we are getting 
past that, that people are reaching out for help. And so you 
begin to provide that help. And then it gets very frustrating 
when all of a sudden they go along a path, and then they are 
successful in executing suicide.
    To me that is very frustrating because you have provided 
programs, you have provided mental health care providers or 
chaplains or whatever else it may be that they were reaching 
out for, but for some reason it wasn't enough, and to me that 
is the most frustrating.
    And we do have some rather small numbers from 2003 to this 
time period here. About 25 percent of those have actually been 
receiving care of some sort, but yet something wasn't good 
enough, and that is disappointing. And so we go back and we 
take a hard look at that, but I would say that is the most 
frustrating is when you provide things, and then still it is 
just not enough. And you never, ever really know what else 
could I have done or could we have done to help them to not 
lose hope and despair and then commit that fateful act.
    Mrs. Davis. Thank you. Thank you all for responding.
    Mr. Wilson.
    Mr. Wilson. Thank you very much.
    And again, thank you for your participation today.
    General Amos, I want to particularly thank you for pointing 
out the morale of our troops who are serving overseas. I have 
had the privilege of visiting 10 times in Iraq, 8 times in 
Afghanistan. Actually I visited with my former National Guard 
unit in Afghanistan. And I have had two sons serve in Iraq. 
They are proud of their service. And we go over to actually 
encourage them. Every time I go, I come back inspired by the 
young people serving our country.
    For all of you today, each of you have described a broad 
spectrum of programs that cut across many disciplines within 
your respective service aimed at preventing, recognizing and 
treating psychological stress in military personnel. How do you 
identify which services are most appropriate for a particular 
servicemember and then coordinate the use of those services 
between the servicemember, the command and the multiple 
organizations that offer the services?
    In addition, when I look at the continuing incidence of 
suicide, even with the number of mental health programs each 
service has available, I can't help but wonder if your programs 
are working. What are your thoughts and how effective are your 
programs for reducing psychological stress and suicide, and how 
are you measuring whether your programs are effective? And this 
is for each one of the panel, and beginning with General 
Chiarelli.
    General Chiarelli. Sir, last year the Army Science Board 
did a study for us as they looked into the increasing number of 
suicides in the Army, and they found 14 pages of programs. So a 
young commander going to look at what he needed to do to work 
this issue would be faced with 14 pages of programs. And it is 
clear to all of us that this is not a problem of having too 
many programs, it is not knowing which ones are the ones that 
actually have an effect.
    We feel that we were very successful in getting the focus 
on this problem with the stand-down we conducted in the March-
April time period where we used the Beyond the Front video 
followed up by a chain teach. But we know the National 
Institute of Mental Health is going to help us to identify 
which programs in that 14 pages work. And we also feel that the 
Comprehensive Soldier Fitness will move us to the left of this 
problem as today we have young non-commissioned officers who 
are taking training at the University of Pennsylvania in 
resiliency training that will go back to their units and begin 
to work with soldiers from the time they enter the Army until 
the time they leave the Army. And we hold great hope that that 
is going to move us to the left.
    Admiral Walsh. Sir, I would put it in the category of 
mental welfare and the programs associated with that. For Navy 
we really focus our energy around a concept of operations here 
that involve line leadership. We feel that we cannot just 
develop something in the medical community and have it stand in 
isolation, which may or may not actually connect to people.
    So the focus of our effort that is now under way today, 
that is too early to assess but instinctively and intuitively 
tells us we are on the right path, is our Operational Stress 
Control Program. The way we are going to track this is really 
relying heavily on assessments and feedback. And the question 
that that then promotes is what do you do with that feedback 
once you get it.
    We have learned over the course of this war that we have to 
have the ability to get mental-health professionals on site, 
and we have direct examples of this, where we have looked at 
detainee operations, for example, in Afghanistan, where we were 
looking at the rotation rates, the dwell time, and just the 
amount of effort that it took for sailors to take on that duty 
and responsibility. When we had the flyaway team get boots on 
ground and actually take a look at it, the feedback that we 
got, the surveys that we used to target that particular 
population, then influence, then policy changes in terms of who 
we identify for those types of billets, how long they have 
those billets, the dwell time that they need to have after 
having a job like that, and then whether or not they are good 
candidates for returning to the area of responsibility (AOR).
    So in response to your question, whatever program that we 
come up with has to have an understanding that unless we are 
able to assess it and measure it, then we have no idea whether 
or not it is taking any traction. And that is the spirit in 
which we are unveiling the Operational Stress Control Program 
this fall.
    Mr. Wilson. Thank you.
    General Amos. Sir, I think the programs that we have had in 
the past, if you go back and look at history, the Department of 
Defense hasn't kept, didn't start keeping accurate records on 
suicides until post-Vietnam. That was probably sometime in the 
1980s. But I remember looking at a chart. In 1996, the 
Department of Defense began to focus on suicides, and across 
the services you saw a drop. So I think the fact that this 
subcommittee, our Secretary of Defense, our service secretaries 
and our service chiefs are putting this much attention to it is 
going to have an effect.
    It is too soon to tell. Certainly if you ask me today, how 
are you doing today, I will tell you we are doing abysmal, we 
are not doing well. But the programs that we have had have 
worked up, I think, until probably just the last couple of 
years. It has--this generation, this--where we are in kind of 
the state of the Marine Corps with the consistent persistent 
deployments and, I think, the young men and women we are 
bringing in, which are the best we have ever seen by far, 
requires a different approach. It requires an approach that is 
more meaningful to them. And we are going back to what the 
basics of the Marine Corps is, which is leadership; not just a 
platitude, not a plaque, but fundamental leadership. 
Leadership, the same leadership we had while we are deployed in 
Iraq. And we watch them, and we know everything that goes on in 
their brains when we are together on the ground, and yet we 
come home, and we don't have a lot of time at home, and we are 
not spending that detailed leadership and attention to detail 
and attentiveness to those young men and women back home.
    We are changing that. We are instituting the NCO leadership 
panel or training period, which I was telling you about in my 
opening statement.
    And then this final thing that I think is going to take 
root, and it may have the most significant effect, and that is 
to go into entry-level training, to Parris Island, South 
Carolina, and to Marine Corps Recruit Depot in San Diego, and 
with those senior drill instructors and those other two junior 
drill instructors, and they look at those young men and women, 
and they are making them marines in 12 weeks, they change their 
behavior for life. We are working right now to figure out what 
those precise messages are so that when that senior drill 
instructor who they will never forget tells them that marines 
endure hardship well, we don't take the easy way out.
    That is where we are going, sir. So it is too soon to tell, 
but we are working fervently on this thing right now.
    General Fraser. Sir, one of the things that we are doing 
and continue to do is build upon the program that we instituted 
back in the 1997 time period as far as our Air Force Suicide 
Prevention Program goes. It has 11 different elements within 
it, and we take a holistic look across all of our programs all 
the time. And this integrated delivery system that we have 
brings together different elements from different 
organizations, from the medical community, from the chaplaincy 
I mentioned earlier. We have also got Office of Special 
Investigations (OSI) for investigations. We also have the Judge 
Advocate General (JAG) Corps that is a part of that, and also 
our personnel, and we have recently integrated safety as a part 
of this. And what we do with this type of holistic approach is 
look across all of our programs at the wing, the numbered Air 
Force, the Major Command (MAJCOM) and even at the headquarters 
level. And so we are able to look across all of our programs 
and see what can we do better.
    We are also participating in the Suicide Prevention 
Awareness Risk Reduction Committee that is now a part of OSD 
across all the services. And I think that goes to the point 
that you were trying to make is how are we reaching out and 
getting best lessons from others, best practices, so that we 
can integrate them in. And so not only at the wing, Numbered 
Air Force (NAF), MAJCOM and headquarters level, but even across 
the services we are trying to take this approach to see what 
can we do better.
    We have learned some things. In March of this year, I 
instituted a Suicide Prevention Working Group. And just in the 
short time that they had been meeting every single week, just 
recently they outbriefed me with 33 different initiatives that 
we are going to be looking into that go across training, 
policies and other types of programs that we can actually 
institute. So we are seeing some positive things come about to 
ensure that we are maximizing everything that is available to 
us and to our troops.
    Mr. Wilson. We look forward to receiving your updated 
reports. Thank you very much.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chairman, thank you very much. And I sit 
here listening very carefully. And thank you, gentlemen. You 
have got one tough damn job, truthfully, because of the war in 
Iraq and Afghanistan. And I am looking at an article in Marine 
Times, and, General Amos, this is not a criticism, this is 
praise really. At least seven marines are believed to have 
killed themselves so far in July, officials said, putting the 
Corps on a record pace despite broad-based efforts introduced 
to reduce suicides.
    I think you and those who work with you got an impossible 
situation, but I want to thank you for accepting it not as 
impossible.
    I guess you know when you really want to look at this, this 
Nation continues to wear out and break the military. And no 
matter how tough that marine is or that soldier, airman, 
seaman, whatever, a tough human being is a human being. And I 
guess my question, if I have one, I want to know, these seven 
marines, and it could have been seven soldiers, when you get 
the report that Sergeant X or Private X has committed suicide, 
where does that report go? Does it come all the way up the 
chain?
    My point of what I am trying to ask is what I would love to 
know, just one tragedy, the history of that one soldier or that 
one marine, and wanting to know that if he or she had been 
there--let us say that it is because of frequent deployments. 
You said sometimes it is not, and I understood, and I agree 
with that. It could be family situation, it could be financial 
situation. But I really would like to have a briefing from the 
Army or the Marine Corps or the Navy just taking one soldier or 
one marine and give me a classified briefing of what was his 
life like, what signs did you see or not see; and I don't mean 
you individually, but that lieutenant or that captain or that 
major. Did they see any signs? Because I truthfully--I don't 
think you all could be doing any more than you are doing, and 
that is my own personal feelings. But I have sat here, and I 
want to thank the Chairlady and the Ranking Member. We have had 
numerous hearings, and I have sat here, and I think you all are 
doing the very best job you can do. And I commend not only you, 
but the organization, the service that you work with. But I 
don't know if we can get a handle on, unless we had several 
classified briefings about it, Chairman, and let you give us a 
soldier or five soldiers or five marines or five seamen or 
airmen to tell us what was that person's life like, why was it 
not--why was it missed? I am not sure that would help us give 
you any better direction, to be honest with you, but I think it 
would better help us understand.
    Does that make any sense to you that we could be briefed 
individually if not as a committee to try to understand?
    General Amos. If I could take that. I think it makes 
complete sense. And you need to know, and the committee needs 
to know, that in our organization we have a thing, and it is 
not a fancy term and it is a heartbreaker, but it is called a 
death debrief. And you go to visit General Hejlick down at Camp 
Lejeune, and General Hejlick gets a brief. It doesn't matter 
whether it is an airplane accident, or whether it is a marine 
who takes his life, or we have an accident out there and a kid 
has a single-vehicle accident and loses his life. That thing is 
dissected at the lowest level, the Lieutenant Colonel command 
level, all those people in his chain of command or her chain of 
command, sergeant major right down to platoon sergeant right 
down to the squad leader. Everybody comes into General 
Hejlick's office, to include all the generals in between, and 
he will sit down for probably about a 2\1/2\- to 3-hour debrief 
to include pictures, to include family history, all the things 
that you had mentioned. All that is peeled back at General 
Hejlick's.
    That happens across the Marine Corps for the very reasons--
and parts of that comes to me within eight days. That is the 
Assistant Commandant. It comes up. I get to see it, I see the 
pictures, I get the preliminary reports. And for the very 
reasons that you were asking, Congressman Jones, is because we 
just--I don't ever want it to be just another statistic. I want 
it to be a face, a name. He belongs to somebody. Some mother 
and father loaned him to the Marine Corps, or her.
    And so we can do that. We would be happy to do that.
    [The information referred to can be found in the Appendix 
on page 109.]
    General Chiarelli. Sir, I sat in a video teleconference 
this morning with commanders from all over the United States 
where 11 suicide cases were briefed to me. Those cases took 
place between February and March of this year. Every single 
suicide is briefed to me this year. And we go through them in 
great detail; 11 cases in about 2 hours and 15 minutes. We 
learn. And that is what this is all about. It is learning. And 
as a commander briefs, another commander in another part of the 
United States, Iraq, Afghanistan, Hawaii or Japan is on that 
video teleconference being able to apply the lessons learned 
from each individual case to situations that he might find 
himself in with the smaller population that he commands. And we 
could very easily provide you with that information.
    Mr. Jones. Yes, sir.
    Admiral Walsh. Typically I will see the information either 
the day of or the night after in terms of the summary of what 
happened, which then will prompt a series of questions, because 
we know where our pockets of vulnerability are typically with 
our individual augmentees who are serving apart from deployed 
units on their own in support of the ground fight. While our 
statistical evidence suggests that we have not had a problem in 
that area, that is one of the first areas we start looking for. 
Then we look for deployment history. That briefing will go up 
to the Chief of Naval Operations so that everyone is aware.
    I am happy to provide you that information. It is 
unsatisfying because it will leave you with more questions than 
answers. The approach that we take today, the questions that we 
ask, the emphasis and the focus that we place on leadership, 
beginning with the question of why didn't you know, you should 
have known, actually are not our words. Those words were 
written in 1995 by Mike Boorda months before he committed 
suicide.
    So we are a service that has lived with these lingering 
questions and no answers for many years, and this is something 
that we can't put enough focus and emphasis on.
    Mr. Jones. Madam Chairman, I guess my time is about up. I 
want again to say I don't really want to see the reports. I 
know you are doing your job. And I guess I want to bring that 
point up just to say I think you are doing everything that you 
can possibly do in a situation that is just unbelievable, 
because these young men and women are being stressed beyond 
belief. And you cannot--again, in closing, you cannot be--I 
don't care how strong you are, there comes a time that the body 
just says, I cannot do much more. And this country needs to 
face this. This is not your problem. This is the problem of 
this Administration as it was the past Administration, and we 
need to face the facts that we are in a bad situation.
    Thank you.
    Mrs. Davis. Thank you, Mr. Jones.
    And we have been a little loose with the time today because 
I know that it takes a while sometimes to even express how some 
of these programs and concerns are moving along. And so I 
appreciate taking a little more time.
    I wanted to just ask unanimous consent for Mr. Coffman to 
be able to participate and ask questions. Hearing none, I move 
on to Mr. Murphy.
    Mr. Murphy. Thanks for that, Madam Chairwoman.
    Gentlemen, thank you for your candor and tact on such a 
difficult issue with suicides in our military and the 
psychological stress that our heroes are going under during 
these times.
    General Chiarelli, I appreciated your comments regarding 
being more proactive than reactive of a change in philosophy, 
and we do appreciate that; and also your partnership with the 
University of Pennsylvania, that resiliency training classes 
that your folks are going through.
    General Amos, I appreciate your comments, too. As far as we 
all know, in the Army this is the year of the non-commissioned 
officer and your leadership program with the NCOs and making 
sure that they break through those barriers, and that 
leadership, I think, is very much welcome as well.
    I know today we also talked about as far as the stress on 
deployments and the stress going home. I know when I was in 
Iraq 6 years ago, 1 of our 19 paratroopers committed suicide 
over in Baghdad, and that weighs on my heart. And I know my 
colleague that I served with over there, Captain John Soltz, he 
talked about when he came home the hardest thing about 
deploying was coming home and that stress there.
    I represent the Eighth District of Pennsylvania, and I can 
tell you that we have had three young heroes in the past seven 
months this year alone, three young heroes who came home from 
either Iraq or Afghanistan that committed suicide, and that has 
been really tough, that has been really tough. In each of these 
cases we heard similar stories from their families. They knew 
that their loved ones were having problems, but they just 
didn't know how to help or where to turn.
    So my question, I think, are--you know, I know the earlier 
testimony about there was 14 different programs and making sure 
that we are syncing this up and getting it straight. But how 
are the services working with the families before, during and 
after their loved one's deployment so they can spot the signs 
of either post-traumatic stress disorder, traumatic brain 
injury or depression and know how to take action? If you can 
comment about that, I would be very much appreciative.
    General Amos. Sir, two years ago the Commandant got ahold 
of our family team--what we call our family team-building or 
family readiness focus and said, let us put this on a wartime 
footing, when it became apparent that we are going to be at 
this for some time. Not that money is an indication of focus, 
but it does give you a sense of prioritization for our 
Commandant. And it is $400 million in 2008, $400 million 2009, 
and just about that, in fact a little bit more than that, in 
2010. And the whole purpose is to build those, of all those 
awareness programs, all the predeployment efforts, the 
briefings, bringing in the health advisors, bringing in all the 
folks that pull a family together as a unit, to prepare them 
for their deployment.
    Now, there is a host of things that the young marine goes 
through, all the combat training, as you know. I am talking 
about the family readiness part. I am talking about getting the 
spouse prepared for the deployment, what is it like, what can 
you expect, how is it as you get closer, and what it is like 
when you are in the middle of it; and then what is it going to 
be like, as you said, sir, when you come home, what is that 
like? I mean, that is a different set of dynamics.
    We have looked at all three of those periods of time, and 
without getting into just huge details, we have put a lot of 
effort in there to include communications tools, to include 
staying plugged into them with volunteers and paid workers to 
help us stay plugged into those families. In there are all the 
different ways. You can bring your children and get them help 
if they are in school and they are struggling with it. We 
worked very hard at that, sir. And it is all begins six months 
before the deployment and comes back when they come back home.
    Mr. Murphy. Thank you, General Amos.
    General Chiarelli, could you comment.
    General Chiarelli. The most successful program we have seen 
in recent years is the military family life counselors. They 
have been absolutely fantastic, and we are pushing them down to 
battalion level. Prior to having that asset that you could use, 
the only thing you found down at the battalion level, that 
formation of anywhere between 500 and 800 individuals, was the 
chaplain. We have always had one chaplain, but, you know, in 
today's world, after eight years of war, we need two chaplains, 
I would argue, down at those battalion headquarters along with 
the military family life counselors.
    Substance abuse counselors. What I found when I went to 
visit seven installations in eight days was that we still had 
the same authorizations for substance abuse counselors in 2009 
that we had in 2001. And there is no doubt in my mind that the 
incidence of substance abuse has increased in the United States 
Army, and it is part and parcel to the deployments we are 
under. So we are today hiring as quickly as we can to provide 
the additional substance abuse counselors we need.
    And you all know the problem with mental health counselors 
in trying to get enough. We are looking for new and innovative 
ways. And we really believe that being able to provide mental 
health counseling on line, and one day, I hope by November or 
December, an individual will be able to do that at his or her 
home. We made available to all families as well as soldiers in 
the privacy of their own home, and we think that this is one 
way we can get around a national shortage we have by being able 
to bring them together in an on-line capability that will 
service all the Department of Defense.
    Mr. Murphy. Thank you.
    Gentlemen, I think my time is up. I don't want to get 
reprimanded by the Chairwoman, but I would appreciate the next 
round we can further discuss. Thank you.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    We actually have some votes coming up. I think we can 
probably work for at least another Member asking questions and 
maybe a second.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    General Amos, when you were talking about Marine Corps 
Recruit Depot (MCRD) in both the east and west coast, it is 42 
years next month I began, and I don't remember much in terms of 
the teddy bear counseling quality of my drill instructors. On 
the other hand, I think I remember everything they ever said, 
so I think your point is probably a good one.
    I wanted to direct my questions to you, General Chiarelli, 
if I might, since you have the study going on by the National 
Institute of Mental Health, and more in the spirit of just open 
questions. We are focused here today on suicide rates. That may 
or may not be the thing that we need to be measuring or looking 
at. I don't know what is under the water out there. I think of 
all those soldiers that you have right now who are in misery 
and their family is in misery and perhaps children who witness 
a lot of this are in misery, and yet because they don't ever 
actually take the act of some violence towards himself, we may 
not know about it. And I don't know what that is for every 
completed suicide. Is it 5 families, is it 20 families, is it 
200 families? But I think that is--you know, what do we 
measure, and what do we look at? And I think that your study 
from the National Institute of Mental Health may point to what 
we look at. Do we measure the suicide rates of spouses or the 
suicide rates of children of military members?
    General Chiarelli. We collect as much of that data as we 
possibly can, and we track it. It is the most difficult of all 
the data gathered not when it takes place on a military 
installation, but when it takes place off of a military 
installation. But we do our best to collect as much of that 
data as we can.
    And, sir, I think you are 100 percent right. Suicide is a 
the extreme indicator. And by the time I hit the third 
installation, I realized that this wasn't about suicide 
prevention, this is about the mental wellness of soldiers and 
families. That is what this is about. And what our programs 
have to be directed at is that mental wellness, not at the 
extreme. And if we get at that, I really think we are going to 
see the incidence go----
    Dr. Snyder. I think that is right. When you talk about the 
factors, failed relationships, I think, was one that you 
specifically mentioned. Again, the causation is what you are 
looking for; what is causing this out there along the chain? I 
was surprised that a diagnosis of depression was not one of the 
factors. Where does that fit into this?
    General Chiarelli. Depression is an indicator, but when I 
talked to spouses on that tour, what I found from them was 
their spouse was coming back off of a deployment going through 
that first 30-day period where everything is wonderful, but 
then getting down into that training period as he is getting 
ready to go out or she is getting ready to go out in 9 to 11 
months. And the whole process of reintegration, if you have 
ever tried to do that, spouses were telling me their husbands 
were not reintegrating with the family. They just realized that 
that was too hard to do in the short period of time they had, 
and they would back off from the family, which creates the 
relationship problem, which you know spirals out of effect.
    Dr. Snyder. Is there--you all--I think all of you talked 
about the fact that we haven't talked about this for some years 
now, that I think we are doing a better job both in our 
American civil culture, but also the military culture, of 
acknowledging that seeking mental health counseling should not 
be stigmatized. In your Army culture what about couples who 
seek help for marital problems? Is there a stigma to 
acknowledge as a couple that they are having problems, or do 
you think that that is also recognized as better accepted, that 
it is okay to go ahead and acknowledge to your folks that you 
are having difficulty?
    General Chiarelli. I think marriage counseling is better 
accepted, if there is such a way to put it, than the stigma of 
seeking mental health help. And one of the focuses of what we 
are trying to do is to do everything possible to get rid of 
that stigma. That is one of the reasons why I am so excited 
about being able to deliver mental health counseling on line. 
It has been done in Australia. They have had tremendous 
success. The people are more willing to open up on line. And 
that gets the geographically separated people who don't have 
the cocoon of a military post to fall under.
    Dr. Snyder. Are there any duty assignments that a person 
can't hold for a while, such as flying or air traffic 
controller, if they are placed on an antidepressant or a 
medicine for depression or a mental health illness?
    General Chiarelli. There are, and flying is one for sure.
    Dr. Snyder. So that can be a factor in how we deal with 
some of these signs.
    General Chiarelli. It can. But I worry about something 
other than that. I worry that we are overprescribing. I worry 
that we are having such a rough time determining the causal 
effect of this that in many instances I fear that our own 
doctors, at least I will state Army doctors, at times are 
throwing prescriptions at soldiers because they are either 
overworked or just don't know what to do, and there is enough 
evidence-based information to indicate that in some instances 
drugs do----
    Dr. Snyder. Do you track allegations or confirmed episodes 
of child abuse in military families, in Army families.
    General Chiarelli. We do and those numbers are available 
also.
    Dr. Snyder. Do you know what the trend is in that?
    General Chiarelli. I believe last year we were down.
    Dr. Snyder. I think my time is up, Madam Chair. Thank you. 
Thank you all for your service.
    Mrs. Davis. Thank you. We are going to go vote and then 
come back. We are certainly hopeful that you all will be able 
to stay, and I certainly hope that the members will all come 
back, because this is a very important hearing and we would 
like to have everybody's input.
    So can I count on members to come back, hopefully? Thank 
you.
    [Recess.]
    Mrs. Davis. We want to thank everybody for your patience. 
It always takes longer than we think it will. I want to turn to 
the next member, Mr. Loebsack.
    Mr. Loebsack. Well, thank you, Madam Chair. Speaking of 
chairs, I will allow everyone to get in their chairs.
    I really appreciate your being here, all of you. Thank you 
so much for your service and for what you are doing on this 
particular issue. I guess I might just mention a couple of 
things at the outset here before I ask specific questions.
    The whole issue of stigma, I am glad that that was brought 
up. You know, obviously whether it is mental health in the 
civilian sector or the military sector, I think stigma is 
probably maybe the most important factor in all of this and 
doing all we can to overcome the stigma of mental health.
    I have some personal connection to this. My mother as I was 
growing up and throughout my whole adult life, as long as I can 
remember, there has been a struggle with mental health and 
stigma was a huge issue. And we had Rosalyn Carter speak before 
the Education and Labor Committee on Mental Health Parity and a 
number of folks, including her, focused on that particular 
issue. And never having served in the military, but I can only 
imagine that that issue may be even more significant in the 
culture of the military, and you can correct me if I am wrong, 
if I am wrong about that. As I said, I have never served.
    Also the issue of multiple deployments, I think that just 
seems to be coming up over and over again. And clearly that is 
just an important issue with not a lot of dwell time in 
between. I know we are trying to improve on that in all the 
services. And I really hope that we can continue to do so.
    I want to also maybe focus on or drill down a little bit 
more on the families and the children. It was mentioned, I 
think General Amos is the one who mentioned that predeployment 
there is a lot of work done with the families. Obviously 
postdeployment. This is a very important issue. There was a 
National Public Radio story recently about children of the 
Guard, Reserve Components. We do not have a lot of big bases, 
we have none in fact in Iowa, but we have a lot of National 
Guard folks. I like to mention that every hearing I possibly 
can. And clearly I think it is just absolutely critical we do 
everything we can for the families, not just of the active 
service folks, but also those Reserve Components. And I am just 
wondering if you folks, one or all of you, whatever number 
would like to could speak to the Reserve Components, especially 
those Guard folks and their families, those folks who have had 
these multiple deployments. And everyone is trying to balance a 
lot of different things when they are deployed and when they 
come back, but those Guard folks in particular. Whoever wants 
to start, please do.
    General Chiarelli. Well, sir, that is definitely a focus of 
ours. It is how you can take a disbursed population. When you 
take a look at the United States Army today, we have 710,000 
folks on active duty, they are active duty soldiers, Title 10 
soldiers. With about 400,000 who were in the Reserve 
Components. Their total numbers are greater, but 200,000 of 
them, close to 200,000 of them are on active duty. When they 
come off of a 12- or 15-month deployment within 3 or 4 days 
they are back in their community. And that community won't have 
the support base of a Fort Hood or a Fort Bragg. And that is 
why we are so excited about being able to provide mental health 
care on-line, because we will be able to move into remote areas 
and provide Reserve Component soldiers who are part of the 
TRICARE, who join TRICARE, and they can do that today with 
TRICARE Reserve Plus. They and their families will have access 
to that on-line mental health care counseling. And I think you 
all know the tremendous impact the Yellow Ribbon Program has 
made on Reserve Component soldiers in bringing them back and 
giving them the opportunity to go through some reintegration 
training at different periods after they return home from 
deployment.
    So definitely a focus and concern of the Army, one of the 
toughest things we have to try to get at.
    Admiral Walsh. If I could speak to the multiple 
deployments, we don't have correlative data that with more 
deployments we have more suicides, but intuitively, 
instinctively, I think what we have learned in the course of 
these discussions is that what multiple deployments do, often 
time under voluntary conditions where the member elects to go 
back, sometimes sooner than required, is it puts off the family 
integration challenge, and it just allows this to take more 
time and to fester in some cases. This is personal opinion. 
This is sort of an insight that comes with time, trying to 
dissect what the data is really telling us.
    On the family and the children issue, I think I can offer 
an example here where our collaboration with the Marine Corps 
has provided insights that now apply across the Navy in the 
case of needs addressed in Pendleton about trying to target 
families who have gone through multiple deployments and 
specifically the needs of children.
    The Marines, with Navy Medicine, piloted a program and 
worked with local universities to come up with a program called 
FOCUS, which is really a program for families that are under 
constant stress from continuing deployments. Took that idea, 
Naval Special Warfare saw that, liked it and piggybacked on it, 
and now we use that Navy-wide.
    What it does is it is another set of antenna that get us 
out inside our own population to understand what the stressors 
are and what people's needs are. We know that the stress is 
more now than it has been before. We know that there are a 
number of factors that contribute to it. To look at the service 
culture and isolation is not fair to the problem, nor is it 
accurate.
    So our reintegration efforts with folks who return from 
deployment who empirically we know are at risk need to take 
into account these factors of trying to plug people back with 
their families and help them assimilate into problem solving 
for their families, because that is really an issue.
    And then finally on the Guard component, for us it is the 
Reserves, you have given me an opportunity to highlight. We 
couldn't be where we are without the help of Reserves. The 
Reserves have been a tremendous force multiplier for us in 
terms of the skills they offer and the patriotism they bring to 
the mission.
    The challenge that we have in this particular area is not 
so much those who affiliate, it is those who then choose not to 
affiliate after they have served and then we lose track of 
them.
    Typically the way things work in the service culture is 
that if we have got our eyes on it, we will fix it, we will 
work with it, we will support and we will find ways to help. 
But if we are not looking so then we don't see it. So this is 
an area of concern for us.
    General Amos. Sir, we get to the children through the 
parents. That is how we touch our children, both on active duty 
and on our bases and stations where we have DOD schools, like 
Lejeune and Pendleton, and overseas where the children live on 
the base. That is actually the easiest of how we get to them. 
In fact most of those, if not all of those DOD schools, they 
have added counselors, because of deployments. The teachers are 
seeing the results of the deployments on the behavior of the 
children in the school.
    So it is not quite as easy outside in the public school 
systems, which is clearly where the majority of 100,000 
children reside. But to the Reserves--we don't have Guard in 
the Marine Corps, we have Reserves, and they have been very, 
very effective. We have deployed the socks off them in the last 
four or five years. Every unit has deployed at least twice, and 
so we are resetting many of those units right now.
    Eighty plus percent of our Reserves are in what we would 
call whole cloth units; In other words, an infantry battalion, 
Marine wing support squadron. And when they go what has 
happened with the Reserve side is we have mirrored all the 
family readiness programs, all the things I talked to 
Congressman Murphy about. We have mirrored all that for those 
units that are in the Reserve. So they had the benefit of all 
the training, everything. The ones that are troublesome are the 
individual log meds, what we call the IRR, the Individual Ready 
Reserve that kind of goes out onesie, twosie. They come out of 
your state, they come out of my home state. They deploy and 
they come back. That is what Chiarelli was talking about, this 
Yellow Ribbon Program, this reunion effort which is fantastic. 
So the focus effort that came out of University of California 
Los Angeles (UCLA) that was just talked about, Web-based 
opportunities. We call now every single one of the families. We 
are doing our best to stay plugged into them. Through them the 
parents we can get to the children, but there are programs 
available for our children and our families that are out there, 
even if you are an individual log med. It is just the level, 
degree of difficulty of that is significantly higher.
    General Fraser. Sir, we look at it from a total force 
perspective and so all the programs that we have for the active 
duty are certainly available for our Guard and the Reserve. We 
have a very active Yellow Ribbon Program in every state and 
territories now, and it is funded and we are actively engaged 
in that.
    We do also have some new positions with respect to the 
Guard, there is psychological director that has been 
established, a directorate, and is being manned. There is also 
seven regional teams that are able to reach out and work with 
the folks in and the families.
    The other things that we have also made sure that we do for 
the non-collocated locations where there may not be active 
duty, or other types of care, or programs provided is how to 
reach out to them, and what can we do. If somebody has a need, 
has a requirement for some mental health care, then we make 
sure that we get that to them or we will bring them to a 
location where they can receive health care.
    The other thing that we have done is utilizing our 
Preventive Health Assessments, PHAs, before they deploy. That 
then gives us a baseline. We then do a post deployment health 
assessment. Then there is another mandatory one after that, 90 
to 180 days after the deployment for a reassessment. Then that 
gives three looks at the individual so that we can see are 
there any other indicators so that we can be proactive. Where 
they may not be coming forward but we see something through 
these assessments, that allows us then to reach out to the 
individuals or to the families if we are seeing things, too. So 
that has been very hopeful.
    Mr. Loebsack. Madam Chair, I would like to submit a 
question or two for the record to our witnesses because I am 
going to have to go to another meeting.
    Mrs. Davis. If you can submit those, that would be fine, 
Mr. Loebsack.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair. Thank you, gentlemen, 
for being here and for your outstanding service.
    Looking at the testimony of all of you and the numbers, I 
think it is interesting to note that while both the Army and 
the Marine Corps have suicide rates in the 19 to 20 per 
thousand and the Navy and the Air Force about 11 per--per 
100,000, I am sorry--per 100,000, that puts you at or near the 
national average or just barely above half of the national 
average. And so one could say you could potentially say well, 
we are really okay, we are doing as well as the country as a 
whole or we are doing a little better than the country as a 
whole, but you are not saying that. You are not satisfied at 
any suicide rate and you are digging in, and we all ought to be 
grateful to you and your leadership and the service for digging 
into that because we share your concern that it is not okay. 
But I think it is also important to recognize that this isn't 
an extraordinary suicide rate. This is very much in keeping, 
sadly, with what is going on in the Nation as a whole.
    I would like to address questions to all of you, but I am 
not going to do that. I am always tempted to go directly to 
General Amos for the Marine Corps tie, but I am not going to do 
that.
    General Chiarelli, I want to chat with you for just a 
minute and pick up on some of the conversation we have had 
here. We have been active in a Yellow Ribbon Reintegration 
Program in Minnesota for the National Guard, and the Marine 
Reserves there have been actively participating in that. We 
think it is working very well. Part of the program is to bring 
those soldiers back on a regular schedule, 30 days, 60 days and 
90 days, so that they can get some marriage counseling, there 
is a marriage retreat program in Minnesota. You can go to up 
with of the finest hotels in the Twin Cities, quite a nice 
event. There is counseling and a chance to reunite, and so 
forth. So I think that has been a great program. I am glad that 
it is expanding and the states are picking it up, and it seems 
to be working for the Reserve Component.
    The question is when you look at the active component, I 
think that for a long time we have sort of made the assumption 
that because you are back with the family, if you will, you are 
back on a big post or station, you have got medical facilities, 
you have got resources there, that we don't have to worry about 
that periodic checking. And I am just wondering particular for 
the Army, and perhaps the others could take it for the record, 
are you looking at that set period, we are going to look at 
these soldiers, the active soldiers on purpose at 30 days or 45 
days or some time and again at 60 and again at 90, specifically 
looking at the how are you doing, you know, are there signs of 
undue stress?
    General Chiarelli. Well, if I am not mistaken sir, 
Minnesota led with the Yellow Ribbon Program, it is true.
    Mr. Kline. Thank you, I didn't plant that question, but 
thank you very much.
    General Chiarelli. And it was always a frustration to me 
that we brought active component soldiers home and made them go 
to 14 consecutive days of reintegration training, we brought 
mobilized soldiers home and got them demobilized in two days 
and that was success. It never made any sense. That is exactly 
in my opinion the right template to use, to bring them back.
    The Army force generation model has provided us a brigade 
centric force. We don't deploy divisions anymore, all we deploy 
is brigades. There are some second and third order effects that 
our task force is finding. One of them is we normally change 
out commands and leaders at the 30- to 60-day mark upon return 
from a deployment. And when you do that, you break down that 
leadership knowledge where you knew that Private Chiarelli had 
a rough time in that last deployment, and if you don't have a 
handover to someone who is taking over the platoon or battalion 
where you tell Chiarelli's story, he can very easily get lost 
in now a desire to get ready to go on the next deployment as 
quickly as you possibly can, with the new leadership team that 
is totally focused on not only what you have done, but what you 
are getting ready to do. So this is something that we are going 
to have to work very, very hard to make sure we are bringing 
soldiers back at the 90- and 100-day period, that leaders are 
passing off good continuity books to ensure that they know who 
had problems and who didn't.
    I know for a fact that one of the biggest issues I have got 
is I don't have the number of mental health care providers I 
need. I send a psychologist on rotation, he comes back within 
30 days, he comes back to the military treatment facility where 
his practice is and we leave a unit without someone who was 
with the unit doing those kinds of things.
    So you are spot on.
    Mr. Kline. Thank you, General. My time is about to expire. 
I very much appreciate the answer, and I hope that all core 
services are looking at that issue, because there is leadership 
turnover, there is personnel turnover. And we need some 
continuity, which ironically we now have the Reserve Component, 
Guard and Reserve, that I am afraid we may not have in the 
active component.
    Again thank you very much. I yield back.
    Mrs. Davis. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you all for being here today to talk 
with us about this most difficult issue. I was recently in Iraq 
and Afghanistan with Congressman Wilson where a young soldier 
had been lost to suicide, and I know how hard the commanders 
took it. So this is not a simple issue by any means.
    I have a question more directed to what happens after 
somebody has chosen to take their life and you learn of it, 
what is in place? Are there protocols in place to deal with 
family members? And also how do you deal with it within the 
unit of the military, because all you have to do is look, for 
example, when a young high school student is lost to violence 
or whatever and the way in which schools come together to 
provide counseling and understanding and try to move people 
forward. Is there any attempt to address the unit after 
something like this happens? And also do you track data to see 
can it become viral, can the issue of suicide and the existence 
of suicide become viral so it travels within the unit once it 
takes place, unfortunately takes place?
    I direct that to all of you. I don't know who wants to 
begin.
    General Amos. Ma'am, if we lose a Marine through a suicide, 
that family member is treated just as if that Marine fell in 
the battlefield in Iraq or Afghanistan. That great sense of 
dignity and care of the family is precisely what happens. The 
casualty assistance officer is assigned, the whole unit from 
that unit all the way up to Headquarters Marine Corps turns its 
spotlight on that family to provide all those things that 
family members have happen to them after the loss of a loved 
one.
    So there is zero stigma, it is not a matter of we are not 
going to take care of you because you did something that--you 
know, it is precisely with the same dignity we would do with 
the fallen Marine. So I want you to know that all the way from 
the family members all the way to the burial, and the staying 
reconnection typically between that unit and that family 
member. So I want you to feel good about that.
    Ms. Tsongas. Is there an effort to identify that it may be 
different for a family member in the instance of suicide and 
something different might be required to be supportive?
    General Amos. I don't know. I suspect probably our there 
are cases where that might be. But I would also opt just about 
every time a door is knocked on at 2 o'clock in the morning and 
the casualty assistance officer is there or the notification, 
each family, each one of those situations are always different. 
We have the way we do it, but each one of them has probably 20 
percent of the entire effort is different because family 
members are different. So I would say that if there are 
differences and things that had to be handled as a result of a 
suicide instead of a Marine that was lost in combat, they would 
do that. They would know how to do that.
    The issue within units by all means. What typically 
happens, we lost a Marine last week. The report I got was the 
unit stood down. We brought all the leadership to the unit, it 
was an infantry battalion, brought all the leadership of the 
unit together, to include the entire unit in pieces and 
companies as a battalion, and they sat down and talked about 
it. In other words, the last thing we want to do is hide it. We 
want the Marines to know about it and we want them to 
understand there is an obligation that they have to the family 
if they are close to that family, and that we talked about it. 
We bring the chaplains in, and that is where it begins. And 
then from that point if there are issues, like best friend kind 
of issues, then we are sensitive to that and we will route that 
young man or young woman to the right help that we do. We pay 
very close attention to that.
    The final thing I would tell you is that I am always 
nervous about when a unit has a suicide it might then make 
somebody else think that this is an option. And I worry about 
that. I can't tell you that I have seen that, but I will tell 
you I am always concerned about that.
    Ms. Tsongas. So there is no actual data around that?
    General Amos. We actually have data, we can certainly tell 
because we have tracked all the suicides since the early 90s, 
so we can tell precisely what unit and where they are.
    Ms. Tsongas. I would be curious to see that from all the 
services if that was possible.
    General Amos. Okay.
    [The information referred to can be found in the Appendix 
beginning on page 109.]
    General Chiarelli. I have some pretty strong feelings about 
that. The literature that I have read indicates that there is 
not a tendency for suicides to multiply through a unit or an 
organization because of a single or a second suicide. And I 
think sometimes out of frustration people want to go there. And 
I think it is exactly the wrong place to go. I totally agree 
with Jim, in the requirement to sit down and talk about this 
from every single incident.
    As far as the stigma, I would like to say we are as good as 
our Marine brethren, but I fear we are not, because stigma 
still exists in the United States Army. I know that for a fact. 
We are making great strides at trying as hard as we can to 
change that, but stigma not only resides in the United States 
Army, it resides in the civilian world. And I would hope that 
some day the family and parents of suicide victims would be 
treated exactly the same. We will do everything we can from the 
Headquarters Department of the Army (DA) level to be able to do 
that, but I fear that it is not the same across the board in 
every single unit in the United States Army.
    Mrs. Davis. Ms. Tsongas, I am going to move on because we 
have a few people who have not had an opportunity yet. I also 
want to ask unanimous consent for Mr. Kennedy to be able to 
participate and ask questions. Hearing no objection, thank you.
    Next we move to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Madam Chairman, and 
thank you to all our witnesses here today. General Amos, a 
special hello to you, and I hope that all things are still a go 
with the Marines coming to Guam and that the community on Guam 
will receive the full and uncompromised support of the 
Commandant and the Marine Forces Pacific as we go forward with 
the realignment and the buildup. Thank you.
    I am very concerned about the mental well-being of the men 
and women in the Army and Air National Guard, since we have 
such large numbers of guardsmen and reservists, the highest 
number per capita of any State in the Union. Given their 
increased assignments over the past six years, we have seen a 
significant stress on their force from equipment availability, 
to training, as well as psychologically on the servicemembers 
themselves.
    There was an article in the Pacific Daily News of Guam 
recently, our local newspaper, that reported on the 
psychological stress on our National Guard force. And Madam 
Chairman, I will ask that these articles be entered into the 
record.
    Mrs. Davis. Yes.
    [The information referred to can be found in the Appendix 
on page 101.]
    Ms. Bordallo. In the article one woman soldier stated, 
``There is incidences where my daughter would say something to 
me and I would snap. And she'd come back and say, mom, we are 
not the enemy, you are at home now.'' And this woman soldier 
goes on to say, how do I adjust? How do I adapt to the changes 
that I am bringing home?
    So my question is for General Chiarelli and General Fraser, 
what are the Army and Air Force doing to ensure that our 
guardsmen and women have access to appropriate mental care when 
they return from deployment? Now I am particularly interested 
to hear your perspective on how you are working to ensure a 
home station mobilization and demobilization for the National 
Guard. I believe that the home station demobilization, known to 
some of us as the Yellow Ribbon Program, and that was referred 
to earlier here, helps in identifying these symptoms early, but 
additionally after demobilization what specific steps are being 
taken to watch for any symptoms that may develop over time? And 
is there a program in place to monitor this type of activity? 
And is there any follow-up with individual soldiers beyond the 
30-, the 60-, the 90-day checkup periods after demobilization?
    General Fraser. Yes, ma'am. With all of our Reserve 
Component, and more specifically with the Guard, we do the same 
thing with them as all of our programs for the active duty. And 
so they have access to all of those programs. They have also, 
as you mentioned there, the Yellow Ribbon Program, we have that 
and we are very much in favor of it. We see a lot of positive 
things coming out of it, and so we have ensured that that 
program continues to be viable.
    And the other thing that we do is our surveys, that we do 
before individuals deploy, give us a baseline. That is the 
Preventive Health Assessment. And so now they complete those.
    And to go to your point about follow-up afterwards, that is 
the reassessment that is done between the 90 to 180-day. And so 
you are able to take a look at predeployment, postdeployment 
before they return home, and then another reassessment to see 
if there has been any change, which allows us then to be 
proactive in providing them any help that they may need. And 
that is an indicator.
    The family members are all briefed, too. And so they know 
the programs that are available. So we continue to reach out to 
all the family members to make sure they are aware of the 
various programs that are available.
    For those that are non-collocated though, we still have 
work to do. And that is the hardest one that we are trying to 
make sure that we accomplish now, because they don't have 
everything that is available to them. So we keep working it as 
hard as we can, we are not perfect yet, but we will stay at it.
    Ms. Bordallo. Thank you.
    General Chiarelli.
    General Chiarelli. Initially counseling happens as a 
soldier returns from deployment and the demobilization time 
period. Then I have indicated to you that we are very excited 
about being able to provide mental health care on-line. That 
will be kicked off in a test program in three States that I 
know of in the National Guard armories, where soldiers will be 
able to go to the armory and go on-line and get that kind of 
care. And then Military One Source also offers the opportunity 
for up to 10 appointments to an individual feeling that he 
needs to see a mental health care professional in person.
    Ms. Bordallo. Thank you.
    Mrs. Davis. We are going to have another vote. What I would 
like to do, we have three individuals, three members who want 
to ask questions. If we can get through those three in the time 
before voting, and then we are delighted that some of you may 
be able to stay. We would love it if you could all stay for the 
second panel in case there are some additional questions, and 
we will return after the votes. They are the last votes. So we 
wouldn't be interrupted again.
    So if I could go on to Ms. Shea-Porter and then we will 
have Mr. Coffman and Mr. Kennedy. If you could all try to keep 
your questions really brief so they can respond in the time, 
that would be helpful.
    Ms. Shea-Porter. Thank you. And General Chiarelli, thank 
you for your comments. Your comments were wonderful. I have a 
question though. I wondered if you know what percentage of your 
suicide victims had drug or alcohol problems.
    General Chiarelli. I can't give you that number off the top 
of my head right now. I know it is lower than one might think, 
but definitely an issue that we are really working hard at 
right now, because we know that drug abuse and alcohol abuse 
has increased since the start of the war. There is no doubt 
about it. I will get that number to you.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Shea-Porter. Thank you. Because I know a lot will self-
medicate to ease some of the pain. So first of all, what is the 
process for discovering that someone has drug and alcohol 
problems and how do you treat them?
    And I am going to say it all at once so you will be able to 
answer it in one question. Can you describe the treatment you 
do after diagnosis, do you have intervention, and what is the 
length of your treatment, and do you work with the family as 
well?
    General Chiarelli. The length of the treatment depends on 
the soldier. There are two major ways. There used to be only 
one. We were very reactive before. We waited until an incident 
occurred, and you were command referred either because you came 
up hot on a urinalysis for some kind of drug abuse or you did 
something like get picked up for driving while intoxicated. It 
kicked off a pilot program at three installations, only at one 
right now, where we are allowing soldiers to command refer 
themselves, to literally self-refer themselves, self-refer 
themselves for drug and alcohol counseling, and their command 
is not informed. So you can go in, we have set up special hours 
that are after duty hours on Saturdays and Sundays where these 
appointments can be made where a soldier who self-refers can go 
in, get the care and the counseling he needs, and hopefully 
head off a problem before we end up in the reactive mode.
    Ms. Shea-Porter. I think self-referral and being able to 
keep their privacy is absolutely critical for soldiers to step 
forward for treatment. But again, if you recognize them--the 
length of time that they are in treatment is critical. A lot of 
the programs that fail in the general population, like three 
days inpatient and then they don't have the support around them 
when they are discharged. So if you find somebody and you 
recognize that they do have to be hospitalized and treated for 
this, what is the range of the program, is it available to all?
    General Chiarelli. My problem is counselors right now. I 
don't have enough counselors. We are really focused on hiring 
as many as we can. But it is up to the individual counselor to 
determine the severity of the case and make a determination on 
whether it can be handled as an outpatient or whether inpatient 
care is required. If inpatient care is required, we have a 
number of facilities we use throughout the United States where 
we will send individuals for the requisite amount of time to 
handle the substance abuse problem that they have.
    Ms. Shea-Porter. And do they have to wait for the referral 
because of your backlog?
    General Chiarelli. That is exactly the problem I have got. 
When you don't have enough substance abuse counselors and you 
get a series of command referrals, what I found with the 
recidivism rate that I had, where the number of soldiers who 
had come up hot on a urinalysis for drugs, the time it was 
taking to get them referred and get them seen by a counselor 
was so long because of a higher incidence rate and not enough 
counselors. So that is an issue that we have had to attack and 
we are attacking it as hard as we can. I couldn't kick off the 
pilot program because it wouldn't do anybody any good to self-
refer yourself for an alcohol problem to be told well, come 
back in eight weeks and we will take care of you.
    Ms. Shea-Porter. And sadly the same problem exists in the 
general population.
    Thank you, I yield back.
    Mrs. Davis. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Madam Chairman. First of all, I 
want to compliment you on something you are doing and encourage 
you maybe to enhance that or certainly stress that, and there 
are two things that I think are very effective. One is I guess 
the postdeployment briefs prior to leaving the theater of 
operations. I found during the Gulf War, in leaving Iraq in 
2006 of the United States Marine Corps, that those briefings, 
those postdeployment briefings were extremely helpful in 
readjusting, in my case, back to civilian life. So I want to 
obviously I was an individual augmentee and I think that 
certainly the Marine Corps was covering everybody, and I want 
to encourage everybody that that is extremely helpful.
    And the second thing that is being done that I want to 
certainly stress that you continue doing, if not enhance, and 
that is the decompression period, particularly for the Guard 
and Reserve, that they come back somewhere and that there is a 
period of time where maybe they are processing out, but it is 
extended a little bit prior to sending them back out to 
civilian life. I think that is another important feature that 
you all do.
    Last is a question that I have in terms of a preventative 
tool. I was in Army in between a Marine Corps infantry, combat 
training and combat is tough stuff. It requires people that are 
physically and mentally tough. And you can't sugarcoat that. 
That is just the way it is. And what tools have you developed, 
or are you looking at, or I would hope that you would look at, 
that when you are looking at that intake, when you are looking 
at that potential recruit, people have varying thresholds to 
stress. And there are people that by the nature of their makeup 
are going to break a lot earlier than other people. Are you 
being able to look at those recruits, potential recruits, and 
develop tools to say, you know, this person just isn't going to 
make it, they are going to fall apart, and this person has the 
characteristics to be successful. I think that is absolutely 
important to try to address this problem preemptively instead 
of dealing with it after the fact.
    So if you all could address that, I would appreciate that.
    General Chiarelli. Well, that is why I am so excited about 
comprehensive soldier fitness, because it has such a robust 
assessment tool on the front end. It will not only be used when 
a soldier comes into the Army but will be used throughout his 
career to evaluate his resiliency and his ability to do exactly 
what you are talking about. So from the Army's standpoint, that 
is our big idea and what we are looking at to get at the exact 
problem you are talking about, sir.
    Mr. Coffman. Are you doing it in terms of looking at 
potentially saying, you know, you meet all the standards, but 
we think that given there are some behavioral characteristics 
here, based on assessment tools, that maybe you are not meant 
for the United States Army, certainly you are not meant for 
ground combat?
    General Chiarelli. That is an excellent question. We can do 
the assessment. I have asked the same question. Once we get 
this totally in place, there will be some legal issues that we 
will have to, I know, maneuver our way through to show that the 
assessment tool has that degree of accuracy that we could make 
that kind of call.
    Admiral Walsh. From the Naval perspective, we have sailors 
serving on the ground. The assessment tools that we have rely 
on the judgment of leaders, and that is where we see this 
warrior ethos passed from one generation to the next. We see it 
in the training pipeline for Naval Aviation, we see it in the 
Recruit Training Command, we see it in Special Warfare Command. 
The way we have been able to tailor our training command 
pipeline so that we do put stress on folks to see how they 
react and respond under stressful conditions, however 
artificially induced, gives us a preview of how they will react 
over time in the duress of combat, not perfected.
    Mr. Coffman. Thank you. 
    General Amos. Sir, at recruit training, in the next session 
we will have maybe General Lefebvre up here sitting in this 
spot and he commanded the recruit depot at Parris Island, so he 
will be able to give you precisely. But we specifically and 
very purposely put an enormous amount of stress at boot camp 
for a 24-hour period of time. And what we want to do is find 
out those young men and women that can't handle it. This isn't 
machoism, it is just a function of the unit, you know, what the 
Marine Corps is. And after 24 hours they get what they call the 
moment of truth, that is where the drill instructor takes his 
hat off and says, okay, it is now time, those of you that have 
now figured out that you're in the wrong spot, no harm, no 
foul. You can leave the depot, and of course we do that. So 
that is how it happens entry, in the early entry. We rely on 
those drill instructors, and as you know, they are pretty 
doggone good.
    A little bit farther down the pipeline for bona fide card-
carrying Marines, we have immersion training that we put them 
in, where the sights, the smells, the sound, the fear, the 
noise builds their level of stress while they are doing their 
training up to the point where the guys that are combat vets, 
if they have any issues in some cases that comes out during 
this immersion training. So we give that. We have a combat 
fitness program now that the Commandant started about a year 
ago which actually gets us in shape to do the kinds of things 
we find in Iraq, and then we finally rely on small unit 
leadership, those NCOs and those staff NCOs and those young 
officers paying very close attention.
    Mr. Coffman. Thank you.
    General Fraser. Some of the exact same processes are used 
as far as our troops go too. Early on using some of the tools 
that are available to us to ensure they get into the right 
career fields. As they are stressed in their comprehensive 
training program, some are actually dismissed and possibly then 
retrained in other areas because they still want to continue to 
serve. Part of going into theater though, it is a 
comprehensive, realistic training environment to stress them as 
best we can and then relying on those leaders to make that 
assessment if they are ready to go.
    Mr. Coffman. Thank you, Madam Chairman.
    Mrs. Davis. Thank you.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Madam Chair. Thank you for the 
honor of able to participate with this panel. I appreciate my 
colleagues agreeing to let me speak.
    I first want to thank all those members of the armed 
services who are here for their service to their country. It is 
an enormous sacrifice. You are not in it for the money, that is 
for sure. You are in it for your service to our country, and 
for that on behalf of my constituents I want to thank you for 
your service, especially at this time while we are at war. You 
never know when you serve, when you will be serving, whether it 
is at peacetime or wartime, or where you will be serving and 
whether you will be in a place where you might be called upon 
to put your life at risk. And all of us want to say thank you 
for your service to our country and to say thank you to your 
families as well for the sacrifice they make on behalf of our 
country.
    It is really in that regard that I wanted to ask all of our 
panel what they think of the opportunity for us to get 
treatment for and really for our soldiers by helping support 
our family members, because really the family is our first line 
of defense in helping those returning servicemen and women when 
coming back. And we found with the Veterans Committee the 
benefits all go to the veteran, but it might be good if we kind 
of broaden the definition of beneficiary to include the spouse 
and the kids in terms of reimbursement for services, because, 
you know, they are suffering from secondary post-traumatic 
stress disorder when they see their family member overseas and 
in harm's way, and of course they are away from their family 
member for so long that is a stressor. But when their family 
member comes home, would you not agree that if it were up to 
us, it would be good to get them ready to know how to identify 
and be ready for and support their loved one so that they can 
help them reacclimate to family life, and don't you think we 
need to be kind of helping to reimburse for whatever services 
that may be needed for those family members?
    Can we start with you General Chiarelli.
    General Chiarelli. Well sir, the military family life 
counselors I think has been a huge, huge improvement in the 
last few years to provide that kind of a service and care for 
families down to that battalion level. They are working inside 
the battalion. But I am very proud of the fact that all family 
programs that we have put so much into these last years, they 
have all been put into the base budget in everything from child 
care to all the services available to families are there and 
available throughout the deployment and once soldiers come back 
home. So I really think the emphasis has been placed on this 
has been emphasis well placed, and it has had a huge impact on 
the United States Army.
    Mr. Kennedy. If I could follow up, I know my previous 
colleagues, Representatives Coffman and Carol Shea-Porter, both 
asked about how to screen soldiers before they come in to make 
sure that they are adequately prepared for the stresses of 
combat and military life and then how to best treat a soldier 
who might be suffering from substance abuse disorders and the 
like.
    I have introduced, along with Walter Jones, the SUPPORT 
Act, Supporting Uniform Personnel By Providing Oversight and 
Relevant Treatment, SUPPORT in short, and that is to oversee 
basically all of the substance abuse and treatment programs 
that are out there within DOD to assess what are working and 
what aren't and bring some coordination and see to it that we 
are using the best practices in our treatment efforts.
    And in regards to making sure our servicemen and women can 
be prepared for any situation, I wish we didn't have to have a 
stigma, because when I was first elected to Congress I was 
asked to go down to the John F. Kennedy Special Warfare Center, 
and there our elite Green Berets have available to them 
psychiatrists 24 hours a day, 7 days a week. And you might ask 
why would the elite of the elite have psychiatrists available 
to them. Well, it was believed by the commanders that it made 
them better at what they do to have a clear head and a healthy 
state of mind when they were called into combat duty.
    Now if that was the thinking for our elite forces, why 
isn't it the thinking with the rest of our forces if they are 
now being called in to all kinds of dangerous situations to 
have a healthy state of mind? Why do we look at this as a 
weakness? Why don't we look at this as proactive, as my 
colleague Representative Coffman said, and think of this as a 
strengthening tool rather than as a reactionary tool to only 
treat people who may be looking as though they are falling 
apart? We look at this as strengthening. They can better be 
resilient, and they can better make decisions under combat in 
stressful situations, and they can be better soldiers in the 
process.
    So what would all of you like to say about that?
    Admiral Walsh. We have mental health specialists that 
deploy with our services, with our units, with our carrier 
strike groups. So it is viewed as an asset that helps to 
sustain the force. So the capability is there no matter what 
happens, under what conditions, to help servicemen, regardless 
of their rank or their rate or gender or background, whatever 
help that they need. And so we see it as the embedded concept 
works at sea and helps sustain the force.
    Mr. Kennedy. What troubles me is that with the Marines 
having just in 2006 put the suicide prevention program in 
place, I mean, this is many years after the war started and 
then the funding for suicide preventions remain relatively 
stagnant in spite of the fact that suicide has gone up. Am I 
right or did I not get the testimony correct?
    General Amos. Sir, the funding is not an issue. We have 
never had an issue with funding, both from the perspective of 
if we ever asked for it we can get it. Quite honestly, the 
Services are more than willing to realign programs to get the 
money to do it. So funding is not an issue.
    Honestly, I think this has been an evolutionary process. 
Prior to stepping across the border in March of 2003, we had a 
military that hadn't been to combat since the Gulf War, for all 
intents and purposes. So now we spent probably the first two or 
three years not in denial, but this effort of combat stress, 
the issue of what is this doing to our force, because quite 
honestly I think everybody thought well, this war will be over, 
we will be able to come back and reset, and we are going to be 
okay.
    Now we are coming at this from my perspective probably a 
little bit late within the last three years I would say, 
certainly in my service the last three years, have been huge 
efforts put towards this thing. I will tell you there is not 
enough mental health folks right now. What you have described 
with the special forces is exactly what we would like to have 
happen. We have got 24 mental health folks in Afghanistan with 
our 10,600 Marines right now. We want more, we want to get them 
there. In a perfect world you would want to have as many of 
those kinds of folks as you possibly could get and higher down 
with those units for the very reason you have talked about. 
Quite frankly, they are not there.
    Mrs. Davis. Thank you, Mr. Kennedy. We are going to have to 
close.
    What I would ask you to do, I think, is you have spoken 
about the need. Is it necessarily money? It is obviously 
trained people who would be available and either in the service 
or in some cases, whether it is TRICARE or family care, help 
for our children. It is through the health programs that their 
families are engaged with. Thinking about what would it look 
like if we actually were covering these issues at a better 
level, what would that mean? How many personnel are we really 
looking for and what areas particularly might they be, the full 
spectrum in terms of our servicemembers and their families. I 
think trying to maybe see ideally where we ought to be, that 
might help us. If we think in terms of strategically where we 
need to be, we wouldn't want to even think out five years, 
maybe even three years for that matter. Because I think looking 
at the mental health work that is being done, the research, 
trying to follow up, go through the data and understand it 
better, we know that that is in the future a little bit before 
we have all of that information.
    You have great information. I think you all are doing what 
needs to be done, and it may be that some of the concerns that 
we have had over the years haven't necessarily been met because 
it has been hard to figure out what you really need. And now we 
have an opportunity to perhaps see that clear. And we would 
certainly hope that with those budget requests that we were 
able to at least understand the extent to which we are able to 
meet the most critical needs. And if we can help with that, we 
would certainly like to know what does that picture really look 
like.
    Mr. Kennedy. Madam Chair, there was an article in the 
Washington Post I would like to submit for the record about the 
crime rate on base at the 4th Infantry Division in Fort Carson 
being 114 times higher than the surrounding Colorado Springs 
community, and the issue here is how are we going to deal with 
the servicemen and women dealing with their stress and getting 
caught up in the criminal justice system and even the court-
martial system.
    Are we going to make special allowances to the fact that 
much of this is due to their post-traumatic stress? How is the 
military going to deal with this? Are we going to end up 
locking up all of our soldiers because of the crisis they are 
facing emotionally as a result of their service?
    [The information referred to can be found in the Appendix 
on page 105.]
    Mrs. Davis. Thank you, Mr. Kennedy. Thank you all so much 
for being here. If you can stay a while for the second panel we 
would certainly be grateful for that. We will return after 
several votes, and then there will be no more interruptions. 
And we really do look forward to hearing the second panel.
    Thank you so much.
    [Recess.]
    Mrs. Davis. Thank you. We are pleased to start with our 
second panel. And we are delighted to have you here. Lieutenant 
General Rick Lynch and Major General Paul Lefebvre. Thank you. 
Please.

STATEMENT OF LT. GEN. RICK LYNCH, USA, COMMANDING GENERAL, III 
             ARMORED CORPS AND FORT HOOD, U.S. ARMY

    General Lynch. Thank you, ma'am. Chairwoman Davis and 
Ranking Member Wilson, thank you for this opportunity to talk 
about what has happened in III Corps and Fort Hood, but 
candidly, more important, thank you for your continued support 
for our soldiers and their families and your demonstrated 
commitment. Just having the opportunity to watch the engagement 
with the service vices shows me how dedicated you are to truly 
helping us take care of our soldiers and their families.
    I am privileged to command III Corps in Fort Hood. That is 
63,000 soldiers, over 10 percent of the Army, and one-third of 
the Corps is currently deployed fighting and winning our 
Nation's wars, one-third of the Corps just recently returned 
from a deployment, and one-third of the Corps is preparing to 
deploy. That is the new normal in an operational force here and 
one facet of the Army Force Generation (ARFORGEN) model.
    I am personally responsible for the lives and well-being of 
125,000 family members and 200,000 retirees in the central 
Texas area, and I take that responsibility very personal. I 
believe that engaged leaders love their soldiers and their 
families like they love their own children, and indeed that is 
the approach we take at III Corps and Ford Hood.
    I don't spend a lot of time at Fort Hood talking about 
suicide prevention, but I spend all my time talking about 
stress reduction. Because I am convinced that the stress of the 
force can indeed be reduced by positive affirmative actions. 
And if you don't mind I would like to highlight four of those 
things for you now and then take whatever questions you would 
like towards the end.
    The first thing is we have declared III Corps and Fort Hood 
as the family first Corps. If you are assigned to III Corps, 
you are home for dinner every night by 6:00 because that is 
where the family unit forms and functions. If you are assigned 
to III Corps, you leave Thursdays at 3:00 in the afternoon. 
That allows you more time with your families, that allows you 
to be home when the kids get home from school, that allows you 
to have some additional family activities. And if you are 
assigned to III Corps in Fort Hood, you don't work on weekends 
without my personal approval.
    Because the only thing you cannot do once you deploy is 
spend time with your family. So what we have to do is mandate 
quality family time. It was only three days in the command of 
the Corps, this is now over a year ago, when a family member 
came and said, General, you all are lying to us. I said, ma'am, 
what? She said, you say that you brought our husbands home in 
this thing called dwell time but we never see our husbands. He 
comes home after the kids go to bed, he is working on weekends, 
you take him off to the national training center, and she 
looked me in the eye and said, you might as well just keep him 
because we are not seeing him anyway. That is why we are the 
family first Corps. And that has indeed had great effect in 
reducing the stress on the families.
    As part of that what we have done is emphasized the 
maintain balance and have fun. What I found when I returned to 
the Corps is we lost the ability as an Army to have fun. So 
what I have done is implemented a lot of things that allow 
folks to have fun. We have reopened the club systems, we have 
rejuvenated family programs because I want the youngsters and 
their families to enjoy life at Fort Hood.
    The second thing we did is we took an entire city block at 
Fort Hood, Texas and made it the resiliency campus. See, I 
believe we spend too much time addressing issues with soldiers 
and their families after we broke them and not enough time 
keeping them from breaking, and I think that is the essence of 
resiliency. So at the resiliency campus we took a chapel, which 
happened to be the chapel my wife and I were married in 27 
years earlier. We took this chapel and turned it into a 
spiritual fitness center. It is manned 24/7 by chaplains and 
counselors, so if a youngster or a family member has a problem 
late at night and they need someplace to go and somebody to 
talk to they can go to the spiritual fitness center. They can 
go there to pause and reflect, they can go there to meditate, 
they can talk to people with shared experiences, they can 
indeed grow spiritually. It is not about religion, it is about 
a spiritual foundation from which to turn to.
    We turned a gym into the wellness center, and it is not 
about how much push-ups you can do but how truly well you are. 
So we do diagnosis of the individual, of the soldier and their 
family, we determine their level of wellness and then we take 
them into the wellness center and improve their wellness.
    The primary issues with suicide in a III Corps perspective, 
we have had four completed suicides since the first of the 
year. It is about strained relationships, and it is about 
financial issues. So on the resiliency campus we put our 
military family life consultants that General Chiarelli was 
talking about so you have immediate access to counselors, and 
we have a national assistance center which allows us to improve 
the financial readiness of our soldiers, which reduces the 
stress on the family, so so very important.
    So this resiliency campus indeed found a life of its own, 
and people come there not because they got a problem, but 
because they want to avoid having a problem. It is all about 
getting in front of the problem and not reacting afterwards.
    We are all concerned at the stigma related to mental health 
issues. So the way we approach this at Fort Hood is every 
Friday--correction, every Wednesday at 3:00 I personally greet 
every new arrival to the great place. And normally that is 
about 300 to 400 new soldiers and their families. And I explain 
to them how important they are, their self-worth, how important 
they are to their families, to our organization, and make it a 
point to tell them how important they are. And then I tell the 
group that I have cried more in the last three years than I 
have cried my entire adult life. One hundred fifty-three 
soldiers died on the place in the battlefield that I placed 
them as I was commander of the task force as part of the surge, 
and I got to live with that the rest of my life. And I am 
personally responsible for 882 gold star families, these 
families who have paid the ultimate sacrifice, and that has an 
emotional drain. But I share with the larger audience that I am 
indeed affected and I am getting help, so if they got a problem 
raise your hand, so we can get you the right kind of help to 
reduce the stigma. The stigma is still out there, but it is 
something we approach on a daily basis.
    And the last thing, it is all about engaged leadership. I 
personally chair a suicide prevention review board once a month 
where every commander and command sergeant major and I review 
all the suicidal trends across the Corps from the previous 
month. I thank God and I thank engaged leadership we have only 
had four completed suicides. But three times a day my phone 
rings with a youngster who has got a suicidal gesture, an 
ideation or an attempt. And what we do as a group of leaders is 
we dissect each case and try to learn from those cases. We 
empower our leaders with information on how to deal with 
suicidal ideations. And we find ourselves in a situation now 
when a youngster who has a problem he feels free to tell his 
battle buddy or his leader that I got a problem, that I need 
some help. That has significantly driven down the completed 
suicides at least at Fort Hood, Texas.
    So again I think it is all about reducing stress, and we 
continue to take action at Fort Hood to reduce stress. And 
ma'am, with that I am happy to answer any questions.
    Mrs. Davis. Thank you very much. We will go on and come 
back to questions. Thank you.
    General Lefebvre.

     STATEMENT OF MAJ. GEN. PAUL E. LEFEBVRE, USMC, DEPUTY 
COMMANDING GENERAL, II MARINE EXPEDITIONARY FORCE, U.S. MARINE 
                             CORPS

    General Lefebvre. Thank you, ma'am, Chairwoman Davis, 
Ranking Member Wilson, distinguished members of the committee. 
On behalf of all marines and sailors and the II Marine 
Expeditionary Force (MEF), I would like to thank you for having 
us here today to let us talk a little bit about what we are 
doing down in the Carolina Marine Air-Ground Task Force 
(MAGTF).
    Just by way of reference, as the Commandant of the Marine 
Corps said, I was Commanding General at Parris Island for two 
years. So I had recruiting duty east of the Mississippi, and I 
also had recruit training. And for the last year I was the 
Deputy Commander for the 18th Airborne Corps, largely an Army 
unit in Iraq, and I chaired their Suicide Prevention Board. And 
I am currently serving as the Deputy for II MEF, and I am 
headed to a Marine Special Operations Command shortly.
    I also have personal knowledge of the General's command and 
leadership philosophy as it was exhibited in Iraq, and I can 
tell you that it doesn't get any better than what the General 
does in terms of leadership. You can have all the programs you 
want, but it is the commander and what he does to make all 
those things happen that are important. And his impact in Iraq 
was felt long after he left on many, many soldiers across the 
theater.
    In reference to II MEF as a combat unit supporting both 
Iraqi Freedom and Enduring Freedom, we very deeply feel the 
death of every marine and sailor, whether combat loss, 
accidental fatality, or suicide. I would reinforce General 
Amos' statement when he said that when a marine or sailor dies 
by suicide the needless loss of life is a tragedy. We take 
every opportunity to ensure our marines and sailors know how 
important they are to the Nation and to the institution.
    II Marine Expeditionary Force is grateful for your support, 
that of OSD and from our service in dealing with this issue. In 
our analysis of factors affecting suicide we have identified 
trends that may contribute to a tragic suicide; however, the 
majority of our suicides this year appear to be impulsive 
responses to a short-term issue, often a troubled relationship. 
We are trying to determine how cohesion is affected in certain 
units that continually regenerate for combat.
    As marines we seek to build a strong sense of commitment 
within our platoons, companies, battalions, and squadrons to 
foster the feeling of an extended family so our warriors know 
they will always have someone to turn to immediately when 
confronted with problems. It is imperative that in an era of 
instant communication where personal issues boil quickly that 
we are there to intervene and to mitigate. This task has proven 
to be challenging given the increased and extended operational 
tempo resulting from the war.
    Whether deployed or at home station, the day-to-day 
activities to either conduct or support requisite training keep 
our leaders at full steam and almost in perpetual motion. The 
challenge for our leaders is to balance the preparations and 
execution of war with team building, mentorship and the 
development of a war ethos for their subordinates while 
maintaining their own families and personal relationships.
    It is the sense of team among peers, unit esprit, and the 
approachability of leaders that provide the safety net when the 
individual marine lacks the resiliency to handle a flash point 
personal issue or extended period of stress. Our operational 
tempo has stretched the safety net on a number of occasions.
    Our Commandant acknowledged the effect of operational 
stress when he gained congressional approval to increase the 
size of the Marine Corps from 182,000 to 202,000. We had a 5-
year period in which we had hoped to do that, and we actually 
accomplished it in 2\1/2\ years, and this year we hope to see 
the benefit of that buffer so to speak that we have established 
here now with the force. His intent was to break this 7 months 
deployed, 7 months home cycle--and as you know it is not really 
home, it is preparation for the next deployment--and to put a 
14-month buffer in there which allows the concerned leadership 
that we require at the individual level to identify these flash 
point issues that often lead to a negative consequence.
    We believe a key issue in this suicide rests with smart 
young leadership. I would tell you that--I would emphasize what 
General Amos said in that we have put all our marbles, so to 
speak, in the NCO basket because they are closest to this 
particular problem. And they are young themselves, as General 
Amos talked about, probably the youngest of all the force. So 
how does a young corporal who succeeds in combat, how do we 
give him the skills to both understand the issue and to be able 
to deal with it. So that is our focus of effort as we speak 
today.
    My boss, Lieutenant General Denny Hejlik, the Commanding 
General of MEF, recently addressed all lieutenants and captains 
who had been very focused on the operational aspects of this in 
order to enhance the concerned leaderships required by junior 
officers, in particular to understand what the signs are here 
within operational stress both in the families as well as 
within their marines. And our Sergeant Major has done the same 
with all our staff NCOs in the force. We will continue to 
create and maintain an environment where marines and sailors 
are cared for even though we maintain the tempo that I have 
talked of.
    Our marines and sailors must know that they are integral to 
the success of the Marine Corps and to the expeditionary force, 
and sometimes we forget that. In the heat of the moment as we 
prepare for the next training piece or the next deployment it 
is important to remind them from a resiliency standpoint what 
we have accomplished and what role they play in it from a self-
worth perspective.
    Most importantly, we want our young marines and sailors to 
have the confidence that they can reach out and embrace the 
support they need from the leadership without any stigma 
attached. Our way forward is to continue integration of service 
level programs with local initiatives that meet our 
circumstances.
    The NCO program that I talked about is extremely hard 
hitting. It starts with a 30-minute video. And this video takes 
you through a marine from combat that starts to experience the 
stress of the post-stress environment, to include the financial 
piece, marital issues, and marines can see for themselves what 
it is to witness this as it occurs even when it has not 
happened in their own lives. This video also takes a marine 
corporal who attempted suicide and talks to nine of his 
supervisors that intervened in the suicide and talks to what 
they saw. And significantly, it includes one of our Navy Cross 
winners who actually attempted suicide also, and it talks to 
how he got to that point from a relationship standpoint, and it 
walks you back to where he started to and then how he got there 
and concludes with three family members that have experienced 
suicide.
    And then the Socratic method is used by NCOs with NCOs to 
talk about the video in terms of the vignette as to what the 
lessons learned. And we think this will enhance the skills at 
the NCO level. As a matter of fact, this past Friday General 
Hejlik with all the general officers in the MEF, all the 
leaders and the staff NCOs, witnessed the instruction for the 
purposes of making sure that we understood we had the best NCOs 
in here to be the best teachers for this as we really focus 
down at that particular level.
    Additionally, we are implementing the operational stress 
control and readiness. We talked a little bit about that in the 
previous session. What that does, it provides mental health 
professionals provide instruction to our doctors and our 
chaplains and our leaders at the battalion level to give a 
connecting thought to these NCOs that we are training. So we 
are pushing down the capability down to the battalion, down 
actually down into the company level. That training is going on 
now and will be implemented here within the next 90 days. So 
greater awareness, as well as greater response capability.
    Lastly, I would like to conclude by saying that we are not 
accepting this. You have acknowledged our great effort. There 
is still tremendous work to be done. I very much appreciate the 
efforts of this committee to look at this and to help us. Also 
very much appreciate the sharing of ideas with our sister 
services here on this because no one has the answers.
    Again, thank you very much for the opportunity to express 
my thoughts today. Thank you.
    Mrs. Davis. Thank you very much. It is good to have you.
    General Lynch, if I could just start by asking a few 
questions. How has your new program, if we call it, been 
received, and do you find that there is work that is not 
getting done because of the schedule? Have the exercises of 
time management sunk in and are people utilizing them? People 
must be watching what you are doing and wondering what is going 
on.
    General Lynch. You know, I went so far as to bring in the 
Franklin Covey Institute for Time Management to give classes to 
all my leaders, because what I found is we are indeed wasting 
time during the course of the day which caused them to have to 
work late at night which caused them to be away from their 
families. So I just took away that option. If you got to be 
home for dinner by 6:00, you got to manage your time better. 
And I gave them the skill sets so they could manage their time 
better.
    It is well received across the installation. It is 
embarrassing to me the number of family members who come to me 
to tell me thank you. When I ask what are you thanking me for, 
they say we are thanking you because you gave us our husbands 
back. They should never have to do that. That is something we 
should do all the time.
    So it really is a function of effective time management, 
take away the options to work late at night, work on weekends 
and we are as prepared for war now as we were when we found 
ourselves working seven days a week.
    Mrs. Davis. And are you able to evaluate that? Is there 
something in particular that you are looking for in that 
evaluation that would be helpful for others to know?
    General Lynch. Yes, ma'am. We continue to work all of our 
training regiment in preparation for combat operations. That is 
indeed what we are trying to accomplish. Number one is prepare 
for and win our Nation's wars. So there has been no degradation 
in our capability. And since I have been the corps commander we 
have deployed multiple units, and in the deployment they are 
doing extremely well. So I know we didn't lose anything there.
    And I do know now the stress on the families has been 
reduced because when the husband is home or the wife is home 
they are truly home. And I am seeing all indicators go down; 
domestic violence go down, substance abuse go down, suicide 
ideations, gestures, attempts go down as a result of reducing 
the stress.
    Mrs. Davis. One of my colleagues, and I think it was Dr. 
Snyder who mentioned earlier that we are not just focusing on 
those who actually commit suicide, but people that are in pain, 
that are hurting in a whole host of ways. And I am wondering if 
you have a sense that--you mentioned that things are looking 
better.
    What about acting out? What about people getting into 
trouble in town? We know that there are a number of problems 
that a number of our military men and women are experiencing 
that may really be of great concern as we look at the numbers 
soon. What are you seeing? Are people not getting into trouble 
as much? I like the fact that you took everybody on a 
motorcycle run. I saw that.
    General Lynch. Yes ma'am. What we found is----
    Mrs. Davis. Are you tracking that, are you tracking those 
numbers.
    General Lynch. Yes, ma'am, we are. I get briefed routinely, 
as all commanders do, on statistical trends. And one of the 
things I am working and looking at is crime rate on the 
installation and off the installation, and it has been 
significantly reduced over the course of the last year, to the 
point of about, I think it was half of what it was this time 
last year. So the kids are indeed, the kids being my soldiers, 
I refer to them as my kids because I love them like I love my 
children, the kids are indeed as a result of having reduced 
some stress and emphasizing to having fun--I mean, you talked 
about my motorcycle run. I happen to be a Harley Davidson 
aficionado. So we take these runs, but it is all about reducing 
stress. And the result of them being less stressed they are 
less likely to hurt themselves, hurt somebody else and do 
something bad, and we are seeing those trends.
    Mrs. Davis. General Lefebvre, you had mentioned working 
with the commanders and really trying to educate them as well. 
And I am just wondering if you have had much pushback? You know 
do--are you seeing that people are saying, well, you know, I am 
not a psychologist, you know, what do I need to know this stuff 
for. Or did you start out with those kind of conversations that 
have changed and trended, and what could you tell us about 
that?
    General Lefebvre. Yes, ma'am. First of all, because suicide 
is pervasive and it is not to a specific unit, military 
occupational specialty (MOS) or element in the MAGTF, everyone 
has experienced it. So there is no question or problem at any 
level of leadership inside the Marine Corps as to how big an 
issue this is. And I think the traditional pieces of let's just 
be a little more concerned about this, those ideas went out the 
window a long time ago. Now it is how, as you asked your 
question earlier about frustration, how do we actually figure 
out where the causative factors are and what do we actually put 
our arms around. And commanders are asking those questions and 
they are looking for help.
    So you can proliferate programs, and yes, you are right 
about the fact that some of them may not be coordinated, but 
right now they are very interested in every asset they can put 
their hands on in order to get at aspects of the program until 
we get our arms around the larger piece.
    So there is no bad idea, so to speak. So when we come 
forward to them with a new way of looking at this, and 
especially when we emphasize at the NCO level what we are going 
to do, it is part and parcel to our leadership style and it 
fits our culture perfectly in terms of where we are going to 
go.
    So I think the commanders are absolutely on board with 
that, and I think the forum probably is more to get a give and 
take with the commanders on better practices and ideas than it 
is to sell a particular idea to them.
    Mrs. Davis. What part of the culture though makes this 
difficult?
    General Lefebvre. The part of the culture is that we are 
all tough guys. But I think we are by that. And I will use how 
we approach boot camp. One of the members today was talking 
about the fact that he went to boot camp and he remembers what 
his drill instructor said but he doesn't remember the soft side 
of things. Well, I wouldn't exactly say it is the soft side of 
things. What I would say is that we have embraced this idea of 
values-based training.
    So now you have 80 hours where a drill instructor stacks up 
a couple of locker boxes and he gets in front of his platoon 
and they talk about sexual assault. I mean, it is not a 
lecture, it is a back and forth on what is this, it is a back 
and forth about stress, it is a back and forth about, for 
instance, the power of prayer and what part that plays inside 
the development of a marine.
    So it is not just about the mental and the physical. The 
moral aspect of it is now a big piece of recruit training. And 
you cause kind of some--you cause kind of a new area. So out in 
the fleet sometimes when we start to talk about these things 
people are, what are you doing in boot camp now, why are you 
having these sessions where you are talking about these issues. 
And the bottom line is that is how you recognize whose 
resiliency locker, so to speak, is low or high and who you have 
to focus on in the boot camp stressful environment in order to 
put some tools in that particular marine's bag in order to 
allow him to be successful as he moves out.
    So those have been very, very positive developments, but 
they have not necessarily been part of who we have been in the 
past, but clearly where our Commandant wants us to go.
    Mrs. Davis. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman, and thank both of 
you for your heartfelt explanations and pointing out of 
something that I believe, and that is the military service of 
the servicemembers, their families, veterans. It is like 
extended family. And I particularly--General Lynch, I 
appreciate your past service at Fort Stewart. I spent 25 
summers with the Army National Guard at Fort Stewart, so I know 
the capable people who are there. And then also very 
significant, my oldest son was trained there for his deployment 
to Iraq for a year and returned to Fort Stewart before he 
resumed his legal career.
    Also, General Lefebvre, thank you so much for your service 
as commanding general at Parris Island. I am very grateful. 
That is part of the district that I represent. It has already 
been identified that all males east of the Mississippi River 
are trained at Parris Island. I am also very grateful all 
female marines in the world are trained at Parris Island. And I 
have been there to see the training, I have been there for the 
graduations to see the bearing of these young people. It just 
makes you feel so good to know how they have faith in 
themselves and know what they are doing. But it is also even 
better to see the families, to see the moms, dads, the 
grandparents, the siblings, the other relatives who are 
present, and there is not a dry eye in the house. Everybody is 
just so proud of their military.
    And so thank both of you for providing the opportunities 
you do.
    General Lefebvre, as we consider this issue could you tell 
about the Marine Corps programs that are specifically focused 
on reducing stress on the personnel most affected by suicide? 
How do you plan to measure the success of these programs? In 
your estimation, what other resources are needed to address 
psychological stress in the Marines?
    General Lefebvre. The measurement piece, sir, as expressed 
in the last panel is one of the causative factors and how do we 
put a capability against it and then wait to see how we are 
being successful.
    The two programs that probably have the most benefit, one 
is the NCO program I just talked about. The other one is this, 
is the OSCAR program, this Operational Stress Control and 
Readiness program that we are developing with the Navy, where 
we are adding mental health professionals at the higher levels 
of command and providing mental health professionals at the 
regimental level, which we have already done in combat. And 
because there is a shortage of those we have taken mental 
health professionals and we are now going to train battalion 
commanders and normal doctors, medical doctors, and chaplains 
in a couple of areas.
    One is in this issue of resiliency that we talked about 
here today. And I think resiliency, mentioned by every member 
of the panel, is one of the keys, but a tough thing to define 
and a tough thing to measure in the individual servicemember. 
But for sure when resiliency is low they are prone to suicide.
    So the key is how will they measure what is in the tool bag 
so to speak to include what we are doing at boot camp, how we 
sustain that through their training and how do we refresh that 
in the fleet.
    But the OSCAR extender program that we call it will give us 
capability down into the battalions, actually down into the 
company level as a peer kind of a capability with specialized 
training. The goal in the long term is to provide the health 
professionals at that level, but that will take time and we 
don't have time.
    So I think, ma'am, in particular your question to the 
previous panel about what the ideal is, that is apropos and one 
that we can really get our arms around because we have been 
looking at that in terms of numbers of professionals. I think 
when we made this decision to go to 202,000 and as we studied 
family readiness the Commandant did a couple of other things 
also. He put a family readiness officer in each one of our 
battalions. We had a family readiness program for an awful long 
time, but it was volunteer. And we asked our families, the 
senior wives in particular, to handle a lot of those 
responsibilities at the expense of a lot of other personal 
issues. As a matter of fact, the kinds of issues you deal with 
today are so complex that a volunteer wife would have 
difficulty being smart on those issues.
    So this family readiness officer who is now with the 
reserve units, as well as with the active duty units, is a one-
stop shopping as a resource into the number of programs that 
are there. As a matter of fact once referred there or once 
there they can sort out the programs for you, whether that is a 
family program or an individual program, has proven to be 
hugely successful to this point for units that are getting 
ready to deploy, and they remain at home station with the 
families while we are gone.
    So, sir, those are the programs. The measurement of those I 
think, given the NCO program, the combat operational stress 
program, as well as what we are doing in family readiness, I 
think over the course of the next year, as well as we have 
achieved this, about to achieve this 14-month buffer because of 
our increase in our forces, are going to pay dividends for us 
in our ability to spend more time from a leadership perspective 
around those who are most at risk.
    Mr. Wilson. Thank you very much.
    General Lefebvre. Thank you, sir.
    Mrs. Davis. Thank you. We appreciate that. You are talking 
about the family readiness counselors, and I know having met 
with key volunteers and the ombudsman how critical they are. 
When I first came into Congress and started working with HASC, 
and even though I had obviously been living in San Diego for 
many, many years I wasn't aware of the role that they played. 
And I was also aware that they were all volunteers and they 
handled such complex issues 24 hours a day. And I really 
wondered how they do that. And without any recognition.
    We tried to change some of that, but I know that we have 
moved from that role for a number of individuals. And I was 
going to ask you whether you felt that in order to deal with 
the shortage that we have in mental health providers if there 
are individuals that we could or should be training, utilizing, 
that are in the services today that perhaps are doing very 
important jobs but could be doing even something more critical 
to the mission. And if you thought about that and where you 
might want to go to think about bringing more of those 
individuals, whether they are--we think of them in terms of 
practitioners at a physician assistance level or how we might 
do that in the future.
    General Lynch.
    General Lynch. You had asked the question to the earlier 
panel what is the biggest source of frustration. My biggest 
source of frustration is indeed the lack of behavioral health 
professionals. That is the biggest frustration. I am short 
about 44 of what I am convinced I need at Fort Hood that I just 
don't have. And that includes reaching out to the community to 
see what the community can do to help. But candidly, what I 
found is the Nation is short these behavioral health 
specialists, not just the military. So when we try to bring 
somebody on the installation we are taking away from the 
community which expands the problem.
    So what General Chiarelli talked about earlier, we are very 
excited about, this idea of on-line counseling. Because if the 
youngsters or their families can go on a computer, which is 
what they do most of the time anyway, and can access a 
behavioral health specialist and have individual counseling, 
that would be powerful. It wouldn't rob from the community but 
it would be a nationwide asset to allow us to be able to 
access. And what I understand from the Army's perspective we 
will be able to do that in the fall. That is very important.
    What we have found is the number one issue with suicidal 
ideations is failed relationships, and these failed 
relationships are a lot of the function of deployments around, 
it just is. I mean you can't continue to go away, come back, go 
away, come back without strain in a relationship. It can't 
happen. You have got to focus on those family counselors.
    So when General Chiarelli talked about these military 
family life consultants, that is so very important. These are 
licensed professional counselors with at least a Master's 
Degree of education in counseling that are now embedded in our 
units at the battalion level that allow soldiers and family 
members to say hey, I need some help, and they can have that in 
a confidential forum.
    We also take those military family life counselors and take 
them off the installation in a program we call Operation Store 
Front. So if somebody wants to go get help but doesn't want to 
do it on the installation, they can do it off the installation.
    Many of the local hospitals have reached out as well with 
their licensed professional counselors to give my soldiers and 
their families access.
    So, ma'am, we are doing all we can do there trying to make 
sure we get the right professionals helping us address the 
problem. We try to empower our leaders with how do you deal 
with grief, tragedy and loss. We try to empower our leaders in 
how do you identify suicide or ideations and what do you do 
about it, but you really need to be able to turn to those 
professionals.
    Mrs. Davis. Are you finding that families who have 
experienced a suicide in the family--in most cases they would 
be leaving the base fairly within a year's time, is that 
correct, or how does--what happens after a period of time?
    General Lynch. We treat our fallen heroes who fell as a 
result of suicide with the same dignity and respect that we do 
those soldiers who fell on the field of battle, to include 
their families. So we do everything we can do to ensure the 
families are helped through these difficult times.
    I talked about the 882 gold star families that we deal with 
in central Texas. Many of those are gold star families from 
suicides. So we make sure that those families know about it. 
They stay on the installation as long as they need to up to six 
months, and they can extend that if they need to. We make sure 
they are given the same kind of resources and access to 
resources that those soldiers who fell in combat do.
    Mrs. Davis. And you are saying that it is six months but it 
can be extended if that would be in the best interest of the 
family?
    General Lynch. Yes, ma'am. It is all about concerned, 
caring, compassionate leadership. And what we try to do is 
handle each case on a case-by-case basis and look at the 
situation to see what is appropriate.
    Mrs. Davis. Thank you. I certainly appreciate that. And 
just in terms of waiting times to get help and assistance, are 
you aware of whether it takes a family several weeks to have a 
child in, for example, to see somebody as opposed to the 
servicemember who may be seeking help? What do those wait times 
look like to you?
    General Lefebvre. At Camp Lejeune, ma'am, we have five 
family counselors with a full docket. But to get in there for 
an additional appointment for assessment is actually pretty 
quick. It is based on how deep is the problem and what is it 
going to take. So we don't think four is enough. We think the 
number is probably about 10 to handle just the families and the 
children.
    The FOCUS program that we talked about a little while ago 
with the help of UCLA is the program that we developed, and it 
has been very, very successful. What we don't know based on the 
stigma that you have talked about is how many people would not 
come to this.
    But again I would go back to the 14 months now between 
deployments. I think commanders will be more aware of what, for 
a fingertip feel, what their issues are. They are embracing the 
counseling pieces that are required, and I think you will see 
more advocacy of that as we turn more attention to those 
pieces.
    But we suffer from the shortage that we have talked about. 
But we also have worked very closely with the Navy to increase 
our clinicians. They are kind of a bridge. They are not 
behavioral psychologists, but they know enough to help our 
leaders to point them in the right direction for help. That is 
the bridge to about 2011 before we start to see an increase 
from the Navy.
    The issue that we do see that is significant with post-
traumatic stress disorder (PTSD) and others is continuity care. 
Once a young marine establishes a relationship, when that 
psychologist or psychiatrist transfers to the theater, which 
happens often because they are on rotations, it is like we 
talked about before just a little while ago about changing 
commanders after 90 days. You lose visibility, you lose 
confidence. So continuity care is as important as the numbers 
of doctors that we have to address this issue.
    Mrs. Davis. Thank you. Mr. Wilson, did you have any other 
questions?
    Mr. Wilson. Yes, thank you. General Lynch, you have 
identified some programs that are unique to Fort Hood that are 
specifically aimed at reducing the stress on your troops. Can 
you please tell us more about these programs, such as the 
Warrior Combat Stress Reset Program?
    I would also like to understand why you felt it necessary 
to initiate at Fort Hood unique programs in light of there are 
so many DOD and Army programs already in place for mental 
health stress issues.
    General Lynch. Thank you, sir. We indeed approach the 
problem from all aspects. So we established what we call the 
Combat Warrior Reset Program, which allows my soldiers who 
indeed have difficult times, either PTSD or mild traumatic 
brain injury (MTBI), to be seen over a three-week process by 
dedicated professionals. And we use every approach to their 
treatment that we can, to include acupuncture and Reiki and 
massage therapy. And indeed everybody that goes into that 
program and comes out the other end benefits from the program. 
Those are the kinds of things we look at.
    But candidly, sir, what I am trying to do is spend more 
time addressing the problem before it becomes a problem. I 
don't need to get them into the Combat Warrior Reset Center if 
I can indeed make them more resilient. Now, not every soldier 
who deploys to combat, and your sons can attest to this, not 
every soldier who deploys to combat comes back with PTSD. Not 
all of them, they do not. Some of them found it to be an 
enriching experience. They were confronted with a difficult 
situation, they thrived in that situation, and they grew as an 
individual.
    So what we are trying to do in line with the Chief of Staff 
of the Army's Comprehensive Soldier Fitness Program, which 
really is all about resiliency, emotional, physical, spiritual, 
family, and social resiliency, is have the programs on Fort 
Hood that I described on our resiliency campus. Because I want 
the families who are experiencing times, and they all are, they 
all are--you know, Sara and I have been married 27 years. I 
have been away from her four of the last six years. That is 
hard. It is hard on a marriage, on an established marriage. Can 
you imagine the strain or the difficulties with a newly married 
couple and these deployments? So have programs like Marriage to 
Street Retreats and a Strong Bonds Program, which allow 
families who are developing their relationships to become more 
strong and as a result of that more resilient prior to 
deployment.
    Mr. Wilson. I want to thank both of you, because the family 
support activities, I spent many years working on pre-
mobilization legal counseling. And I have seen advances through 
Judge Advocate General (JAG) officers, through the family 
support organizations, and the Yellow Ribbon Campaign. All of 
these are just so helpful to families. And I appreciate you 
pointing out, too, that so many of our young people who have 
served, this will be a hallmark of their lives in terms of an 
uplifting experience to look back to and to let their families 
know about it in the future.
    And so again thank both of you for what you are doing. And 
Madam Chairwoman, thank you so much for this hearing today.
    Mrs. Davis. Thank you, Mr. Wilson.
    One follow-up. I just wanted to ask about the families 
where the soldier, airman have been wounded, marine, have been 
wounded and whether we are providing additional kind of support 
to them over and above what you would hope to be provided for 
those at Fort Hood.
    General Lynch. Yes, ma'am. Engaged leaders know their 
subordinates and their families. And what we do is we identify 
those families that could indeed be high risk. And they could 
be high risk as a result of a wound that was incurred in 
combat, or they could be high risk because of strained 
relationships or financial problems. And what we do is ensure 
that we zoom in on those individuals and lead them to the right 
kind of resources so they can be taken care of.
    Candidly, ma'am, what I found is you can have the 
resources, but if they don't know about them they are not going 
to access the resource. So engaged leaders lead their 
subordinates to those resources, those programs that we have.
    Mrs. Davis. Thank you. We certainly have many families that 
are supporting their warrior in untold ways, and I think we do 
need to provide that support to them. They are extremely 
resilient in many cases, but we can't take that for granted 
because they are working so hard to be supportive.
    Thank you so much. We really appreciate you being here. We 
are grateful for what you are doing, and we look forward to 
continuing feedback. And we hope that perhaps some of the 
examples that we have heard about here today will be followed 
in other places. Thank you very much.
    [Whereupon, at 5:57 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 29, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 29, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 56936.001
    
    [GRAPHIC] [TIFF OMITTED] 56936.002
    
    [GRAPHIC] [TIFF OMITTED] 56936.003
    
    [GRAPHIC] [TIFF OMITTED] 56936.004
    
    [GRAPHIC] [TIFF OMITTED] 56936.005
    
    [GRAPHIC] [TIFF OMITTED] 56936.006
    
    [GRAPHIC] [TIFF OMITTED] 56936.007
    
    [GRAPHIC] [TIFF OMITTED] 56936.008
    
    [GRAPHIC] [TIFF OMITTED] 56936.009
    
    [GRAPHIC] [TIFF OMITTED] 56936.010
    
    [GRAPHIC] [TIFF OMITTED] 56936.011
    
    [GRAPHIC] [TIFF OMITTED] 56936.012
    
    [GRAPHIC] [TIFF OMITTED] 56936.013
    
    [GRAPHIC] [TIFF OMITTED] 56936.014
    
    [GRAPHIC] [TIFF OMITTED] 56936.015
    
    [GRAPHIC] [TIFF OMITTED] 56936.016
    
    [GRAPHIC] [TIFF OMITTED] 56936.017
    
    [GRAPHIC] [TIFF OMITTED] 56936.018
    
    [GRAPHIC] [TIFF OMITTED] 56936.019
    
    [GRAPHIC] [TIFF OMITTED] 56936.020
    
    [GRAPHIC] [TIFF OMITTED] 56936.021
    
    [GRAPHIC] [TIFF OMITTED] 56936.022
    
    [GRAPHIC] [TIFF OMITTED] 56936.023
    
    [GRAPHIC] [TIFF OMITTED] 56936.024
    
    [GRAPHIC] [TIFF OMITTED] 56936.025
    
    [GRAPHIC] [TIFF OMITTED] 56936.026
    
    [GRAPHIC] [TIFF OMITTED] 56936.027
    
    [GRAPHIC] [TIFF OMITTED] 56936.028
    
    [GRAPHIC] [TIFF OMITTED] 56936.029
    
    [GRAPHIC] [TIFF OMITTED] 56936.030
    
    [GRAPHIC] [TIFF OMITTED] 56936.031
    
    [GRAPHIC] [TIFF OMITTED] 56936.032
    
    [GRAPHIC] [TIFF OMITTED] 56936.033
    
    [GRAPHIC] [TIFF OMITTED] 56936.034
    
    [GRAPHIC] [TIFF OMITTED] 56936.035
    
    [GRAPHIC] [TIFF OMITTED] 56936.036
    
    [GRAPHIC] [TIFF OMITTED] 56936.037
    
    [GRAPHIC] [TIFF OMITTED] 56936.038
    
    [GRAPHIC] [TIFF OMITTED] 56936.039
    
    [GRAPHIC] [TIFF OMITTED] 56936.040
    
    [GRAPHIC] [TIFF OMITTED] 56936.041
    
    [GRAPHIC] [TIFF OMITTED] 56936.042
    
    [GRAPHIC] [TIFF OMITTED] 56936.043
    
    [GRAPHIC] [TIFF OMITTED] 56936.044
    
    [GRAPHIC] [TIFF OMITTED] 56936.045
    
    [GRAPHIC] [TIFF OMITTED] 56936.046
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 29, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 56936.047
    
    [GRAPHIC] [TIFF OMITTED] 56936.048
    
    [GRAPHIC] [TIFF OMITTED] 56936.049
    
    [GRAPHIC] [TIFF OMITTED] 56936.050
    
    [GRAPHIC] [TIFF OMITTED] 56936.053
    
    .eps[GRAPHIC] [TIFF OMITTED] 56936.054
    
.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 29, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. JONES

    General Amos. Headquarters Marine Corps will coordinate, upon 
request, to have a command representative from the Operating Forces 
give a detailed ``Death Debrief '' to any interested Member or Members 
of Congress. Such a request should be sent to the Marine Corps Office 
of Legislative Affairs so that appropriate staff action and 
coordination can be made.
    In the debrief, information such as the Marine's family history, 
photographs of the incident, and circumstances surrounding the incident 
will be presented. From the time of death, such a brief may be 
available to Members of Congress in as few as 8 days; however, this 
timeline is entirely dependent upon the release of information 
resulting from the incident investigations. [See page 15.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MS. SHEA-PORTER
    General Chiarelli. Of the 696 Army deaths by suicide from January 
2003 until July 31, 2009, 114 Soldiers had been diagnosed with a 
substance related disorder (16.4%). This percentage has been fairly 
consistent over the past four years, ranging between 13.2% and 20.7%. 
In the past year, the Army has initiated two major programs to increase 
our ability to provide substance abuse counseling and treatment in the 
past year. First, the Confidential Alcohol Treatment and Education 
Pilot (CATEP) program allows Soldiers who have an alcohol or drug 
problem to self-refer into, and seek treatment from, the Army Substance 
Abuse Program without their chain of command notified. The Army will 
conduct the CATEP program at three installations: Schofield Barracks, 
Hawaii; Fort Lewis, Washington; and Fort Richardson, Alaska. The pilot 
program runs through February 24, 2010. Second, the Army has increased 
the authorization for Substance Abuse Counselors and increased hiring 
and incentive programs. The goal of both initiatives is to increase 
access and encourage participation in Army Substance Abuse Program. 
[See page 29.]
                                 ______
                                 
             RESPONSES TO QUESTION SUBMITTED BY MS. TSONGAS
    General Chiarelli. The Army has been collecting comprehensive 
suicide data since 2001 using a formal process that documents completed 
suicide events. Army Suicide Prevention Program data analysts monitor 
the Defense Casualty Information Processing System, which is managed by 
the Army Casualty and Mortuary Affairs Operations Center and captures 
the cause of death. Data from the Defense Casualty Information 
Processing System and other Army information systems are acquired and 
conjoined for a focused review of Soldier data (such as age, marital 
status, job specialty, deployment, and other service information) to 
assist in identifying possible trends or common factors that may 
promote suicidal behavior. The extrapolated data allows Army Suicide 
Prevention Program data analysts to gather information to include Army 
commands, installations, and unit assignment of Soldiers who die by 
suicide. This allows further analysis of potential clustering that may 
be evident based on common elements within the command or 
organizational structures of units to which Soldiers are assigned and 
daily perform their duties. The analysis of data does not infer 
contagion of suicides in the Army.
    In addition to data analysis, the Army has ``postvention'' 
activities outlined in Army Regulation 600-63, Army Health Promotion, 
and Casualty assistance activities outlined in Army Regulation 600-8-1, 
Army Casualty Program. These activities are required when an individual 
has attempted or committed suicide. After an attempt, commanders, 
noncommissioned officers, and installation gatekeepers (those on our 
camps, posts and stations that interact with the general population on 
a daily basis--emergency response, chaplaincy, medical, small unit 
leaders) must take steps to secure and protect such individuals before 
they can harm themselves and/or others. Other ``postvention'' 
activities also include unit-level interventions following suicides, to 
minimize psychological reactions to the event, prevent or minimize 
potential for suicide contagion, strengthen unit cohesion, and promote 
continued mission readiness. [See page 26.]
    Admiral Walsh. The record of multiple suicides at the same Navy 
unit within any 12 month period from 1999-2009 is:


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
1999                              4 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2000                              2 units with 2 deaths each, 1 unit with 5 deaths
----------------------------------------------------------------------------------------------------------------
2001                              2 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2002                              2 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2003                              2 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2004                              1 unit with 2 deaths
----------------------------------------------------------------------------------------------------------------
2005 to 2006*                     2 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2007                              4 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
2008                              none
----------------------------------------------------------------------------------------------------------------
2009                              2 units with 2 deaths each
----------------------------------------------------------------------------------------------------------------
* Deaths occurred less than 9 months apart, crossing calendar years


    With the exception of the five deaths at Service School Command 
Great Lakes in 2000, there have been no instances that qualify as 
suicide clusters. In that instance the Sailors were assigned to four 
different training programs within the Service School Command.
    Although suicide clusters (multiple suicides in the same place in a 
short period of time) are rare, there is research in the field that 
documents an elevated lifetime risk of suicide for those individuals 
exposed to suicide in the workplace or in family or close friends.
    Any suicide impacts the members of a unit; consequently, prevention 
is key. Navy has trained Suicide Prevention Coordinators at each 
command to assist Commanding Officers in implementing a command level 
prevention program. Each command is required to have a written crisis 
response plan. Navy has a holistic prevention program that ranges from 
resilience building to vigilance and early intervention, crisis 
response, and ``post-vention.''
    In the aftermath of a suicide loss, Navy focuses on ``post-
vention'' activities as critically important to suicide prevention 
efforts, and vital to the morale, welfare and mission readiness of 
those exposed to the suicide. An assessment is conducted to determine 
the requirements for supportive interventions for the unit and its 
individual members. The unit then coordinates with all command and 
local resources, including Chaplains, Fleet and Family Support 
Counselors, and Special Psychiatric Rapid Intervention Teams (SPRINT) 
for the provision of individual and unit support, grief counseling and 
mental health support. [See page 26.]
    General Amos. From January 2007 through October 2009, there were 
117 suicides spread out across 108 different units. 8 of the 108 
battalion/squadron sized units experienced more than one suicide within 
a given year. Seven of the eight had two suicides and one of the units 
had three. Most of the suicides within a battalion were spread out 
across the year by 3-8 months. Only two of the units experienced two 
suicides within the same month.
    A review of the specifics of the suicides that occurred within the 
same unit within the same month, demonstrates:

    <bullet>  The suicides did not occur in the same locations
        <bullet>  Battalion I: suicides occurred in Rhode Island and 
        North Carolina;
        <bullet>  Battalion II: suicides occurred in California and 
        Texas

    <bullet>  Communication with commands confirmed that their 
investigations concluded that the cases were unrelated. [See page 26.]

    General Fraser. A review of Air Force suicides from 2003 through 
2008 shows 6 incidents in which two suicides occurred on the same base, 
using the same means within a three month period. In all but one of 
these cases the method of suicide was gunshot (by far the most common 
means of suicide in the AF). There do not appear to be other links 
between these cases to suggest that they were ``copy cat'' suicides. 
[See page 26.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 29, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In a recently published article in Joint Force 
Quarterly, author Colonel Drew Doolin discusses military mental health 
services and psychological wellness programs that are available to 
military commanders today. Colonel Doolin asserts that although the 
services have several good programs aimed at helping commanders and 
troops deal with psychological stress, the services have failed to get 
the word out on each program. How does each of the services publicize 
these programs? What are you doing to make sure service members at all 
levels and their families know about your programs and know how to 
access these services?
    General Chiarelli. The Army is making a significant effort at the 
national and local levels to inform Soldiers and Families about our 
behavioral health programs and to reduce the stigma associated with 
seeking help. We have developed a Strategic Communications Plan to 
publicize relevant programs and ensure Soldiers and their Families are 
aware of available resources. This plan addresses national and local 
opportunities to disseminate information to Soldiers and Families. At 
the national level, Army Senior Leaders discuss behavioral health 
programs in testimony before Congress, in national conferences with 
military and civilian audiences, and in media roundtables with national 
publications. The Army Home Page, the Army STAND-TO!, and other print 
and electronic information venues managed by Headquarters, Department 
of the Army, regularly highlight behavioral health programs and 
resources available to Soldiers.
    In 2007, the Army Chief of Staff directed that all Soldiers in 
every component of the Army participate in a chain teaching program on 
post traumatic stress disorder and traumatic brain injury. This chain 
teaching program detailed the steps Soldiers should take if they 
identified concerns about themselves or their buddies. This program has 
since been incorporated into the Battlemind Training Program that is 
required for all deploying and redeploying Soldiers and is also 
available for family members.
    At the local level, garrison, hospital, and unit commanders use a 
host of venues to publicize behavioral health programs. All newly 
arriving Soldiers at Army installations are required to attend 
newcomer's briefings as part of their inprocessing. Installation and 
unit newspapers are a great source of information, as are billboards, 
flyers, and brochures. All hospital and garrison commanders conduct 
regular Town Hall meetings that are open to all Soldiers and Families. 
These events feature briefings, displays, and discussions concerning 
community programs and services. Concurrent with each of our publicity 
efforts for specific behavioral health programs, we are sending the 
overarching message that seeking help for behavioral health concerns is 
a sign of strength.
    Mr. Wilson. General Chiarelli, your testimony includes your 
assurance that Army senior leaders consider addressing the critical 
shortfall of uniformed health care providers a priority. However, I 
understand that the Army plans to increase the operating force by 
approximately 12,000 soldiers by the end of fiscal year 2010. At the 
same time the Army plans to decrease the generating force, which 
includes medical personnel, by approximately 6,200 by the end of fiscal 
year 2010. Given your testimony, would any of the 6,200 reduction be 
medical personnel? Along with your testimony today, the Sergeant Major 
of the Army testified last week before this committee that the Army 
needs more medical providers. How will the Army maintain the number of 
mental health personnel to meet the needs of this larger force?
    General Chiarelli. The Army is committed to meeting the health care 
and behavioral health needs of all Soldiers and family members. In 
order to meet the health care needs of the growing force, the Army is 
increasing the number of health care professionals in both the 
operating force and the generating force. This includes increasing 
military billets and pursuing additional civilian personnel.
    Our of our highest priority requirements is for behavioral health 
providers. For the operating force, Army is investing over 1,000 
Behavioral Health Specialists into Brigades across all three 
components. Although the Army is adjusting the generating force, our 
medical structure will not be decreased. In fact, as a result of the 
recently concluded Total Army Analysis review of the generating force, 
an additional

545 military billets have been allocated to the U.S. Army Medical 
Command (MEDCOM) to support the increase in medical workload. 
Assessment by specialty and location on how best to distribute the 545 
is currently on-going. This growth is in addition to the previous 
alignment by the Army to MEDCOM of 738 additional military spaces in 
FY08 and 554 military spaces in FY09. These increases in FY08 and FY09 
included 24 psychiatrists, 19 social workers, 12 psychologists, and 100 
enlisted mental health specialists. In conjunction with these increases 
in military billets, the MEDCOM is actively recruiting civilian and 
contract providers to fill all of the anticipated requirements to 
support the growing Army. Current shortfalls in the medical workforce 
include primary care physicians (family practice, pediatrics, and 
internal medicine), as well as behavioral health professionals 
(psychiatrists, psychologists, and psychiatric health nurses).
    To retain military behavioral health personnel, we are successfully 
employing a variety of special pays and bonuses targeted at 
psychiatrists, clinical psychologists, psychiatric health nurses, and 
social work officers. Participation among officers eligible to contract 
for special pays and bonuses ranges from 75% to 95%. To recruit 
military behavioral health personnel, we offer accession bonuses and 
participation in the Active Duty Health Professions Loan Repayment 
Program, which offers a maximum of $40,000 annually for fully qualified 
applicants.
    The Army Medical Department Center and School and Fayetteville 
State University developed a partnership in February, 2008, to 
establish the U.S. Army-Fayetteville State Master of Social Work 
Program. The graduate social work program was created as a force 
multiplier to offset the decrement of licensed clinical social workers 
available in the active duty Army inventory. The program graduated 15 
social workers last year and has a class of 13 students this year.
    The Army has also made significant efforts to contract for or hire 
civilian behavioral health professionals to augment our military 
providers. Over the last two years, the Army has increased our pool of 
military, civilian, and contract behavioral health providers by 48 
percent and we continue to pursue hiring actions. During that same 
timeframe, TRICARE, the Department of Defense healthcare program for 
members of the uniformed services, their families, and survivors, 
increased its network of behavioral health providers by over 25 
percent.
    Additionally, the Army uses virtual technology to expand our 
current capabilities for providing behavioral healthcare. We currently 
have a number of telehealth programs and are planning to expand our 
capability to support care for warriors with traumatic brain injury and 
post traumatic stress via telehealth. A Virtual Behavioral Health Pilot 
Program was recently conducted in Hawaii to determine the effectiveness 
and technical requirements for virtual BH counseling. Initial results 
are highly encouraging and we plan to expand the program to additional 
sites.
    On August 1, 2009, TRICARE expanded its services to include two new 
online video BH programs. The two online video programs are TRICARE 
Assistance Program (TRIAP) and Tele-behavioral Health which have both 
been developed to help eliminate obstacles to seeking BH treatment. 
Both programs are available to active duty service members and their 
Families. TRIAP and Tele-behavioral Health have the combined capability 
to provide secure online Internet therapy with licensed BH counselors 
located throughout the United States. Through these programs Soldiers 
and Families anywhere in the world can access licensed BH counselors 
for short-term, real-time, face-to-face confidential counseling 
utilizing video technology and software such as Skype or iChat.
    Mr. Wilson. General Colleen McGuire, who heads the Army's Suicide 
Prevention Task Force, was quoted recently saying, ``we have young 
leaders who have not been trained in the art of . . . just taking care 
of soldiers.'' General Chiarelli, what is your assessment of her 
statement? How does the Army balance the time it takes to develop young 
leaders with the time it takes to prepare for combat? I am interested 
to hear from the other service leadership if they are faced with a 
similar challenge.
    General Chiarelli. I think the Army does a very good job of 
developing leaders even as we prepare for war. However, we may be 
neglecting the art of garrison leadership. Our programs that care for 
Soldiers have not evolved to keep up with the constant transitions that 
are the hallmark of our expeditionary Army, and many of our young 
leaders who have spent the majority of their time in a combat 
environment may not be familiar with the programs that translate well 
to a garrison environment.
    We do face some challenges in getting our leaders trained on 
leadership skills required for taking care of our Soldiers due to the 
operational demands. The foundational education and training on the art 
of taking care of Soldiers is normally provided in formal Army schools, 
specifically Basic Officer Leader Course (BOLC) for lieutenants and 
warrant officers and the Warrior Leader Course for noncommissioned 
officers (NCOs). Lieutenants and warrant officers attend the BOLC prior 
to being assigned to their first units. The foundation of this training 
is aligned with the Army's Strong Bonds, Suicide Prevention, and 
Battlemind for Leaders programs.
    The reality is that many of the Army's junior NCOs are serving in 
leadership positions without having received formal leadership 
education because of the operational requirements.
    The Army is striving to balance training, education and experiences 
for our leaders. In the relatively short periods of time spent in 
Professional Military Education provide theory, conceptual information, 
doctrine, policy, and lessons learned. The actual application and 
mastery of leadership skills are achieved during operational 
assignments while preparing for combat or while deployed for combat.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. What steps are the Services taking to assure that 
military kids, including those whose parents are in the Reserve 
Components, have access to mental health care?
    General Chiarelli. The Army is currently working to eliminate the 
barriers that exist for providing timely, convenient, and appropriate 
behavioral health (BH) services for all military children of active, 
Army Reserve (USAR) and Army National Guard (ARNG) Soldiers. Current 
initiatives include the Military Child and Adolescent Center of 
Excellence (MCA CoE), school BH programs, and the opening of Child and 
Family Assistance Centers. Although the Army is leaning forward with 
these initiatives, we recognize that gaps remain, especially for 
children of those in the Reserve Components (RC).
    The Army Medical Command (MEDCOM) approved the development of the 
MCA CoE, a center that focuses on interventions, programs and policy to 
combat the impact of being a military child with a parent deploying, 
wounded, or killed in action. MCA CoE will execute a plan that provides 
support for the development of direct BH support for Army children and 
their families at large deployment installations.
    The MCA CoE concept for the delivery of BH care is to: (1) provide 
a diversity of BH resources/services for Army children and Families, 
including school BH, integrated under a single umbrella organization; 
(2) facilitate the coordination of services and improve capacity and 
access to BH care; (3) reduce stigma associated with behavioral 
healthcare; (4) provide Outreach Community Services/Programs to promote 
resilience and well-being throughout the Army community; and (5) train 
pediatricians and family practice providers in early identification and 
treatment of common BH concerns. The MCA CoE will also develop a 
database of current standards of care for use by other military youth-
serving professionals across the country. Emphasis will be placed on 
following military youth longitudinally over deployment cycles and 
beyond to comprehensively describe deployment impact, parental injury 
or death on children and adolescents and to discover unique protective 
and risk factors among military Families.
    The Army is also working through the MCA CoE to streamline existing 
BH support services for children by funding five school BH programs. 
The programs are family-centered and will provide support for children 
attending schools on military posts. The current locations are 
Landstuhl Army Medical Center, Germany; U.S. Army Medical Clinic, 
Vilseck, Germany; Tripler Army Medical Center, Hawaii; Walter Reed Army 
Medical Center, Washington, DC; and Blanchfield Army Community 
Hospital, Fort Campbell, Kentucky. Madigan Army Medical Center, Fort 
Lewis, Washington, is on track to begin a program in the coming year. 
The programs in Germany are just beginning, but the other three are 
already well established.
    Children of RC Soldiers may be eligible for BH services through 
TRICARE, the Department of Defense's healthcare program for members of 
the uniformed services, their Families, and survivors. Through 
enrollment in TRICARE Reserve Select (TRS) or the Transitional 
Assistance Management Program (TAMP), children of RC Soldiers may 
receive BH services.
    TRS is a premium-based health plan that qualified ARNG and USAR 
members may purchase. TRS, which requires a monthly premium, offers 
coverage similar to TRICARE Standard and Extra. To qualify for TRS, RC 
Soldiers must be a member of the Selected Reserve of the Ready Reserve 
(participate in monthly drills).
    TAMP provides 180 days of transitional health care benefits to help 
uniformed services members and their Families transition to civilian 
life. Generally, TAMP coverage is available to ARNG and USAR service 
members who are separating from the ARNG or USAR after a period of 
active duty that was more than 30 consecutive days in support of a 
contingency operation.
    Additionally, dependents are authorized 12 sessions of BH from the 
Military OneSource, which is provided to all dependents regardless of 
the Soldier's service, component, or duty status. All dependent 
behavioral health services are contracted with a licensed therapist in 
the family member's local community. Dependents are entitled to 12 
sessions per concern, so if the family member is experiencing 
depression and later on becomes fearful of an upcoming parental 
deployment, he or she could be seen for 12 sessions per issue.
    The MCA CoE has dedicated a section in their organization to 
outreach in support of military children of ARNG and USAR Units. Short 
term plans are to provide educational programs to parents and school 
staff serving these children, on issues such as ``The effects of 
Deployment on Children,'' ``Children and Reunion,'' ``Rumors During 
Deployment,'' etc. Tripler Army Medical Center already has begun 
reaching out to the Guard/Reserve on the islands neighboring Oahu. The 
MCA CoE is also developing a video tele-health program to evaluate and 
treat children in remote areas. Efforts are being made to develop this 
program in the State of Washington and expand into other areas as the 
program develops.
    Mr. Loebsack. What, if any, efforts are being undertaken to address 
the correlating impact on children when a servicemember is determined 
to be suffering from PTSD or when they are recovering from a 
significant injury?
    General Chiarelli. The Army provides inpatient and outpatient 
behavioral health (BH) care as well as medical treatment by healthcare 
professionals who have been trained to address the impact of post 
traumatic stress disorder (PTSD) and significant injury on military 
children and Families. These services are provided through installation 
medical treatment facilities (MTF).
    The Army has instituted PTSD training for health care providers so 
they can accurately diagnose and treat combat stress injuries as well 
as address the impact on children and Families. The Army additionally 
leverages local healthcare providers in the surrounding communities 
through the TRICARE Network system, which includes professionals who 
specialize in trauma, family, and child BH issues.
    In addition to the behavioral health programs for military children 
and adolescents, Walter Reed Army Medical Center Child and Adolescent 
Psychiatry created Operation Brave Families in 2003. The program aims 
to build resilience, value, and empower Families. Operation Brave 
Families assists military Families with communicating to children about 
wartime injuries and illnesses, emphasizes optimal parenting and family 
communication, and facilitates optimal adjustment to changes due to 
physical injuries and/or psychological conditions.
    Operation Brave Families offers a full range of services for any 
emotional problems children and parents may experience. Services 
include therapeutic art sessions, therapeutic play sessions, education, 
individual and family supportive therapy, case management assistance, 
and referrals as needed. Treatment is provided by a multidisciplinary 
team that includes a psychiatrist, psychologist, social worker, art 
therapist, and a child activity specialist. In addition, the program 
offers flexible and mobile services allowing staff to provide support 
at hospitals, lodging facilities, Fisher Houses, or Child and 
Adolescent Psychiatry clinics. A similar program has been modeled at 
Fort Sam Houston and other installations.
    Mr. Loebsack. What steps are the Services taking to assure that 
military kids, including those whose parents are in the Reserve 
Components, have access to mental health care?
    Admiral Walsh. Meeting the mental health care needs of military 
children is a priority for Navy Medicine. In order to meet this need 
services are provided by Military Treatment Facility (MTF) providers, 
TRICARE network providers, contract providers working specifically with 
the Reserve Components, and counselors working for Navy, Marine Corps 
and Joint Family Support programs.
    Navy MTFs work closely with the Managed Care Support Contractors to 
optimize provision of child mental health services for active duty and 
retired family members when the indicated services are not available in 
the MTF. Additionally, case managers and social workers are available 
to assist in finding network services to provide mental health care.
    There are several TRICARE/TMA mental health specific programs. Most 
recently, TRICARE Assistance Demonstration Project (TRIAP) and Tele-
Mental Health programs have been developed and marketed. Under TRIAP, 
licensed professionals assess and deliver short-term, non-medical 
counseling that consists of one-on-one private, non-reportable 
conversations. This is a free service for beneficiaries (no billing for 
the service).
    Navy Fleet and Family Service Centers and Marine Corps Community 
Service Centers also provide professional counseling for children and 
families. Additionally, Commander Navy Installations Command, the Navy 
Reserve Forces Family Support Coordinator and the five regional Family 
Support Administrators work closely with Ombudsmen at each command to 
ensure families are aware of these services. Together they facilitate 
the connection of reserve families to each other, to supportive 
military and community resources and improve community awareness of 
military families' experiences and needs. The primary focus of these 
efforts is to support families living apart from military 
installations. The Family Support Administrators liaison with their 
assigned Navy Operational Support Center (NOSC) staffs to ensure 
families are supported by Navy and other services' family support 
programs, including the Joint Family Support Assistance Programs 
(JFSAP). All of our Fleet and Family Support programs are designed to 
provide high quality service to both the Active and Reserve components 
of the Total Force.
    The Navy Reserve Psychological Health Outreach Program (PHOP) was 
established in 2008 to provide early identification and clinical 
assessment of Navy Reservists returning from deployment who are at risk 
for not having their stress injuries identified and treated in an 
expeditious manner. This program also provides outreach and educational 
activities to improve the overall psychological health of Navy 
Reservists and to identify long-term strategies to improve 
psychological health support services for the Reserve community. The 
PHOP facilitates access to psychological health support resources for 
Reservists and family members.
    Mr. Loebsack. What, if any, efforts are being undertaken to address 
the correlating impact on children when a servicemember is determined 
to be suffering from PTSD or when they are recovering from a 
significant injury?
    Admiral Walsh. Mental Health Providers in Navy Military Treatment 
Facilities (MTFs) address the specific needs of our wounded warriors, 
including those suffering from PTSD. In the Navy tertiary care centers 
consult teams meet regularly with these families. These teams consist 
of a health educator who assists in training the families of wounded 
service members, and a child/adolescent social worker who is trained to 
deal specifically with children.
    We also have counseling services for children by licensed 
professional counselors in our Navy Fleet and Family Service Centers 
(FFSC) and Marine Corps Community Service Centers. Navy Command 
Ombudsmen are also trained to refer families with concerns about the 
impact a parent with PTSD or other injury has on children to these 
counselors for services.
    Additionally, FFSC staff work closely with the Navy Reserve Forces 
Family Support Coordinator to facilitate the connection of reserve 
families to supportive military and community resources including the 
Joint Family Support Assistance Programs (JFSAP). All of our Fleet and 
Family Support programs are designed to provide high quality service to 
both the Active and Reserve components of the Total Force.
    Although FFSC deployment staff have always worked with families 
through the cycles of deployment, a growing awareness of the 
significant challenges of these deployments on military family life and 
child and family well-being prompted a recent initiative by the 
Department of Navy Bureau of Medicine and Surgery called FOCUS 
(Families OverComing Under Stress). FOCUS provides state-of-the-art 
family resiliency services to military children and families at 
selected installations.
    Topics including PTSD and other injuries impact on families are 
addressed during Returning Warrior Workshops to assist returning 
Sailors with reintegrating with their families and communities, and to 
better understand the resources available to them. Additionally, the 
Psychological Health Outreach Program (PHOP) workers ensure 
coordination of access to psychological health support resources for 
Reservists and their Family members.
    Finally, in an ongoing effort to fully understand the Navy and 
Marine Corps family, Navy Medicine has embarked in a collaborative 
effort with the Military Family Research Institute of Purdue University 
to assess the needs of our Navy and Marine Corps families and to ensure 
that programs, policies and practices fulfill the needs of all 
families.
    Mr. Loebsack. What steps are the Services taking to assure that 
military kids, including those whose parents are in the Reserve 
Components, have access to mental health care?
    General Amos. Meeting the mental health care needs of military 
children is a priority for Navy Medicine. In order to meet this need 
services are provided by Military Treatment Facility (MTF) providers, 
TRICARE network providers, contract providers working specifically with 
the Reserve Components, and counselors working for Navy, Marine Corps 
and Joint Family Support programs.
    Navy MTFs work closely with the Managed Care Support Contractors to 
optimize provision of child mental health services for active duty and 
retired family members when the indicated services are not available in 
the MTF. Additionally, case managers and social workers are available 
to assist in finding network services to provide mental health care.
    There are several TRICARE/TMA mental health specific programs. Most 
recently, TRICARE Assistance Demonstration Project (TRIAP) and Tele-
Mental Health programs have been developed and marketed. Under TRIAP, 
licensed professionals assess and deliver short-term, non-medical 
counseling that consists of one-on-one private, non-reportable 
conversations. This is a free service for beneficiaries (no billing for 
the service).
    Navy Fleet and Family Service Centers and Marine Corps Community 
Service Centers also provide professional counseling for children and 
families. Additionally, Commander Navy Installations Command, the Navy 
Reserve Forces Family Support Coordinator and the five regional Family 
Support Administrators work closely with Ombudsmen at each command to 
ensure families are aware of these services. Together they facilitate 
the connection of reserve families to each other, to supportive 
military and community resources and improve community awareness of 
military families' experiences and needs. The primary focus of these 
efforts is to support families living apart from military 
installations. The Family Support Administrators liaison with their 
assigned Navy Operational Support Center (NOSC) staffs to ensure 
families are supported by Navy and other services' family support 
programs, including the Joint Family Support Assistance Programs 
(JFSAP). All of our Fleet and Family Support programs are designed to 
provide high quality service to both the Active and Reserve components 
of the Total Force.
    The Navy Reserve Psychological Health Outreach Program (PHOP) was 
established in 2008 to provide early identification and clinical 
assessment of Navy Reservists returning from deployment who are at risk 
for not having their stress injuries identified and treated in an 
expeditious manner. This program also provides outreach and educational 
activities to improve the overall psychological health of Navy 
Reservists and to identify long-term strategies to improve 
psychological health support services for the Reserve community. The 
PHOP facilitates access to psychological health support resources for 
Reservists and family members.
    Mr. Loebsack. What, if any, efforts are being undertaken to address 
the correlating impact on children when a servicemember is determined 
to be suffering from PTSD or when they are recovering from a 
significant injury?
    General Amos. Mental Health Providers in Navy Military Treatment 
Facilities (MTFs) address the specific needs of our wounded warriors, 
including those suffering from PTSD. In the Navy tertiary care centers 
consult teams meet regularly with these families. These teams consist 
of a health educator who assists in training the families of wounded 
service members, and a child/adolescent social worker who is trained to 
deal specifically with children.
    We also have counseling services for children by licensed 
professional counselors in our Navy Fleet and Family Service Centers 
(FFSC) and Marine Corps Community Service Centers. Navy Command 
Ombudsmen are also trained to refer families with concerns about the 
impact a parent with PTSD or other injury has on children to these 
counselors for services.
    Additionally, FFSC staff work closely with the Navy Reserve Forces 
Family Support Coordinator to facilitate the connection of reserve 
families to supportive military and community resources including the 
Joint Family Support Assistance Programs (JFSAP). All of our Fleet and 
Family Support programs are designed to provide high quality service to 
both the Active and Reserve components of the Total Force.
    Although FFSC deployment staff have always worked with families 
through the cycles of deployment, a growing awareness of the 
significant challenges of these deployments on military family life and 
child and family well-being prompted a recent initiative by the 
Department of Navy Bureau of Medicine and Surgery called FOCUS 
(Families OverComing Under Stress). FOCUS provides state-of-the-art 
family resiliency services to military children and families at 
selected installations.
    Topics including PTSD and other injuries impact on families are 
addressed during Returning Warrior Workshops to assist returning 
Sailors with reintegrating with their families and communities, and to 
better understand the resources available to them. Additionally, the 
Psychological Health Outreach Program (PHOP) workers ensure 
coordination of access to psychological health support resources for 
Reservists and their Family members.
    Finally, in an ongoing effort to fully understand the Navy and 
Marine Corps family, Navy Medicine has embarked in a collaborative 
effort with the Military Family Research Institute of Purdue University 
to assess the needs of our Navy and Marine Corps families and to ensure 
that programs, policies and practices fulfill the needs of all 
families.
    Mr. Loebsack. What steps are the Services taking to assure that 
military kids, including those whose parents are in the Reserve 
Components, have access to mental health care?
    General Fraser. Within the continental U.S., the vast majority of 
mental health care for Air Force family member-children is delivered 
within the TRICARE network. TRICARE service delivery is managed by 
regional contractors who determine the number of network providers of 
any given type within their region and work to maintain the adequacy 
and quality of the panel of providers. Family members enjoy the unique 
benefit of being able to seek mental health care for eight sessions of 
outpatient behavioral health care without prior approval or a referral. 
Active duty service members (including activated National Guard/Reserve 
members) and their families enrolled in TRICARE Prime or TRICARE Prime 
Remote can get assistance in setting up behavioral health appointments 
by calling the regional contractors' Behavioral Health Provider Locator 
and Appointment Assistance Service:

    <bullet>  North Region: 1-877-747-9579 (8:00 a.m.-6:00 p.m.)

    <bullet>  South Region: 1-877-298-3514 (8:00 a.m.-7:00 p.m.)

    <bullet>  West Region: 1-866-651-4970 (24 hours per day)

    Family members of the Reserve and Guard have these same benefits 
when their sponsor is activated and up to 90 days prior. Resources 
available to Reserve and Guard families are essentially identical to 
the families of active duty Airmen if their sponsor purchases TRICARE 
Reserve Select.
    There is a nation-wide shortage of qualified mental health 
providers for children. In many rural locations the situation is worse. 
This is why the Services' special needs identification programs are so 
important. Once a family member is identified as having a need for a 
particular type of specialty care, those needs are reviewed before a 
family is given a new assignment.
    TRICARE has recently expanded its telemental health network and has 
launched a particularly interesting pilot program known as the TRICARE 
Assistance Program (TRIAP) web-based counseling and referral 
initiative, which permits eligible family members to receive counseling 
services from a licensed professional mental health provider and be 
referred to formal mental health care if such care is indicated. 
Parents could use such a service to discuss behavioral problems arising 
in their children to better understand the need for further care.
    Other resources available to families include counseling through 
Military OneSource, Chaplains, and Military Family Life Consultants--
all of whom may refer the family to seek more formal mental health 
treatment if necessary through consultation with their primary care 
manager or by contacting a TRICARE mental health provider directly.
    Mr. Loebsack. What, if any, efforts are being undertaken to address 
the correlating impact on children when a service member is determined 
to be suffering from PTSD or when they are recovering from a 
significant injury?
    General Fraser. The Air Force offers a variety of programs and 
services to meet the needs of children of wounded warriors.
    Airman and Family Readiness Centers (A&FRCs) have many resources 
for families of deployed or injured Airmen and their family members. 
Information may be delivered in an individual, family or group format 
and may cover such issues as deployment, grief and loss, daily life 
issues, marriage and relationship issues and parenting. Through the 
A&FRCs, Military and Family Life Consultants (MFLCs) meet 
confidentially with service members, spouses, family members and 
children.
    The Air Reserve Component's Yellow Ribbon Campaign provides 
informational events and activities for the members of the reserve 
component, their families, and community members to facilitate access 
to services supporting their health and well-being through the phases 
of the deployment cycle.
    Depending on the injury or illness, an Airman may have a Family 
Liaison Officer (Survivor Assistance Program), Recovery Care 
Coordinator and/or Medical Case Manager; these individuals frequently 
help the family identify issues and suggest care for a family member.
    The Air Force actively collaborates with its sister services and 
the Defense Center of Excellence for Psychological Health and Traumatic 
Brain Injury (DCoE). One recent initiative of the DCoE has been its 
project with the Sesame Workshop to produce the ``Family Connections'' 
website with Sesame Street-themed resources to help children cope with 
deployments and injured parents. In addition, DoD-funded websites, such 
as afterdeployment.org, provide specific information and guidance for 
parents/caregivers to understand and help kids deal with issues related 
to deployment and its aftermath.
    In consultation with parents, a child's physician (primary care 
manager) frequently is able to identify issues and refer the child for 
care when necessary. Typically, formal mental health treatment is 
delivered through the TRICARE network--families can seek up to 8 visits 
without a referral or the need for prior approval.
    Other sources of counseling available that could benefit children 
of wounded Airmen include support through a chaplain, counseling 
provided through Military OneSource providers, and the TRICARE 
Assistance Program, offering online counseling and referral.

                                  <all>

</pre></body></html>
